<html>
<title> - U.S. DEPARTMENT OF VETERANS AFFAIRS FY2019 BUDGET: VETERANS BENEFITS ADMINISTRATION AND THE BOARD OF VETERANS APPEALS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 U.S. DEPARTMENT OF VETERANS AFFAIRS FY2019 BUDGET: VETERANS BENEFITS 
            ADMINISTRATION AND THE BOARD OF VETERANS APPEALS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                               JOINT WITH

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 15, 2018

                               __________

                           Serial No. 115-52

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                     
                     
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-389                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="691906290a1c1a1d010c0519470a060447">[email&#160;protected]</a>                              
                     
                   
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                     MIKE BOST, Illinois, Chairman

MIKE COFFMAN, Colorado               ELIZABETH ESTY, Connecticut, 
AMATA RADEWAGEN, America Samoa           Ranking Member
JACK BERGMAN, Michigan               JULIA BROWNLEY, California
JIM BANKS, Indiana                   KILILI SABLAN, Northern Mariana 
                                         Islands

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                        Thursday, March 15, 2018

                                                                   Page

U.S. Department Of Veterans Affairs FY2019 Budget: Veterans 
  Benefits Administration And The Board Of Veterans Appeals......     1

                           OPENING STATEMENTS

Honorable Mike Bost, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs................................     1
Honorable Elizabeth Esty, Subcommittee on Disability Assistance 
  and Memorial AffairsRanking Member.............................     2
Honorable Jodey Arrington, Chairman, Subcommittee on Economic 
  Opportunity....................................................     3

                               WITNESSES

The Honorable Cheryl L. Mason, Chairman, Board of Veterans' 
  Appeals, U. S. Department of Veterans Affairs..................     4
    Prepared Statement...........................................    28

        Accompanied by:

    Mr. James E. Manker, Jr., Acting Principal Deputy Under 
        Secretary for Benefits, Veterans Benefits Administration, 
        U. S. Department of Veterans Affairs
    Mr. Lloyd Thrower, Deputy Chief Information Officer, Account 
        Manager for Benefits, Office of Information and 
        Technology, U. S. Department of Veterans Affairs
Mr. Matthew Shuman, Director, Legislative Division, The American 
  Legion.........................................................     6
    Prepared Statement...........................................    31
Mr. Shane L. Liermann, Assistant National Legislative Director, 
  Disabled American Veterans.....................................     8
    Prepared Statement...........................................    34
Ms. Lauren Augustine, Director of Policy, Student Veterans of 
  America........................................................     9
    Prepared Statement...........................................    38

 
 U.S. DEPARTMENT OF VETERANS AFFAIRS FY2019 BUDGET: VETERANS BENEFITS 
            ADMINISTRATION AND THE BOARD OF VETERANS APPEALS

                              ----------                              


                        Thursday, March 15, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                  Subcommittee on Oversight
                                        and Investigations,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 2:01 p.m., in 
Room 334, Cannon House Office Building, Hon. Mike Bost 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Bilirakis, Coffman, 
Wenstrup, Banks, Esty, O'Rourke, and Takano.

   OPENING STATEMENT OF MIKE BOST, CHAIRMAN, SUBCOMMITTEE ON 
           DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

    Mr. Bost. All right. Good afternoon. This joint hearing of 
the Subcommittees on disability assistance and memorial affairs 
and economic opportunity will now come to order.
    Before we begin, I want to take a moment to thank my 
colleagues, Chairman Arrington and Ranking Member Esty and 
Member O'Rourke--Congressman O'Rourke will be along Chairman--
or Ranking Member O'Rourke will be along later--and for working 
together to put this hearing together.
    The hearing is entitled the ``U.S. Department of Veterans 
Affairs Fiscal Year 2000--I'm sorry--2019 Budget: Veterans 
Benefits Administration and the Board of Veterans' Appeals.''
    The president is asking for almost $200 billion for VA, 
which is an increase of about $12 billion over last year. This 
would be on top of the previous increase in the VA's budget. 
Since 2006, the VA's budget has grown 175 percent, while 
overall Federal spending increased 54 percent and the GDP grew 
by only 40 percent. I believe that the VA must be one of our 
Nation's top priorities.
    We have an obligation to ensure that the men and the women 
who have served our Nation in uniform receive the benefits they 
have earned. At the same time, we also owe it to the taxpayers, 
some of whom are veterans, themselves, to ensure that every 
dollar is spent wisely.
    After reviewing the budget, I have several questions that I 
want to ask--that I want the VA to answer; for example, the 
budget includes a request for 605 more full-time equivalents to 
process the VBA appeals, but the budget does not explain 
whether these additional FTEs will be assigned to a new appeals 
or in the modernized--yeah, easy for me to say--modernized 
system, once it is implemented or if they will work on the 
appeals of veterans who have been waiting years in the existing 
appeals system.
    I am also looking forward to the Department providing more 
information about the Board's plans to resolve its current 
appeals inventory, especially if the RAMP take rate continues 
at 3 percent. Now, I know the VA is doing everything within its 
power to increase the number of veterans willing to opt-in to 
RAMP, but what if that doesn't happen, despite the Department's 
best intentions?
    I am going to stop right there because we have a full 
agenda ahead of us and I want to save the time for questions. 
Unfortunately, so you know, I have to step out early for 
another appointment. I want to assure you that--all the 
witnesses, that I will carefully review the record and let you 
know if I need any additional information.
    With that, I ask unanimous consent that the written 
statements provided for the record be placed into the hearing 
record. Without objection, so ordered.
    Again, I want to thank the witnesses for being here today 
and I want to call on Ranking Member Esty to open--give her 
opening statement.

     OPENING STATEMENT OF ELIZABETH ESTY, RANKING MEMBER, 
   SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

    Ms. Esty. Thank you very much, Mr. Chairman, and thank all 
of you for joining us here today.
    We are here to focus on the administration's fiscal year 
2019 budget proposals for the Veterans Benefits Administration. 
Staying focused on veterans' employment, education, and 
compensation may admittedly be difficult with all of the other 
issues swirling around the VA these days; however, that is our 
job and we will do that job in this meeting here today.
    We appreciate the Board of Veterans' Appeals' Chairman 
Cheryl Mason and the VSO representatives for being here to 
offer their perspective and expertise.
    As the Ranking Member of the Disability Assistance and 
Memorial Affairs Subcommittee, I want to take a moment to 
emphasize that the administration's proposal for a compensation 
COLA round down is a nonstarter. As has been said many times 
before by Members of this Committee, as well as by the VSOs and 
our constituents, it is designed to take benefits from veterans 
receiving disability compensation to pay for other veteran's 
programs. If caring for and compensating veterans is truly our 
Nation's priority, then finding the necessary means to pay for 
it should also be a priority.
    I want to thank the DAMA Chairman, Bost, for sponsoring 
H.R. 1328, The American Heroes COLA Act of 2017, which 
authorizes the COLA for fiscal year 2019 without a round down, 
and I am happy to have joined him as an original co-sponsor. I 
look forward to hearing the witnesses' testimony today and to 
your answers to our questions.
    Thank you, and I yield back.
    Mr. Bost. Thank you. And I now recognize Chairman Arrington 
for his opening statement.

OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN, SUBCOMMITTEE ON 
                      ECONOMIC OPPORTUNITY

    Mr. Arrington. Thank you, Mr. Chairman and Ranking Member 
Esty, for your comments and your leadership and for hosting the 
hearing today. I thank everybody testifying for being with us 
and for your input and counsel through this process, and for 
joining us at this hearing of the Subcommittees on Economic 
Opportunity and Disability Assistance and Memorial Affairs as 
we examine VA's fiscal year 2019 budget request, specifically, 
as it pertains to the VBA.
    Chairman Bost already outlined the overall fiscal year 2019 
VA budget request of nearly $200 billion, which is no small 
amount, but I want to focus my thoughts and questions today on 
a piece of that that is very important, and that is the 
programs within the VBA that are, I believe, often overlooked 
but that really go a long way to empower and prepare our 
veterans in their everyday lives, and in some cases, I think, 
can save money long term because of the ounce of preparation 
versus the pound of intervention down the road.
    If any of you have met me or attended one of our EO 
Subcommittee hearings, you know that I believe, like all of my 
colleagues, that veterans and their families deserve the very 
best services, benefits, and care that we can provide them, but 
you would also note that I feel the same way about the 
taxpayers and making sure that they are getting their greatest 
return on their investment and not wasting dollars where they 
could be better utilized elsewhere for excellent service for 
the customer, which is our veteran.
    As I mentioned today, I am interested in discussing certain 
programs within the VBA that help to transition veterans into a 
meaningful and productive civilian life. These are the benefits 
such as the GI Bill, vocation al rehab, home loans, and 
transition services that do more than send a check every month 
to the veteran, but that, instead, empower veterans, as I said, 
to lead a more productive and fulfilling life after their 
active-duty service. These benefits are estimated at $15.5 
billion for fiscal year 2019, yet, unfortunately, the same 
programs that administer these benefits are often not given the 
same priority and focus as other programs within the VBA, let 
alone, the rest of the VA. And in my questions, I will get into 
more details about how these programs have expanded in terms of 
the veteran need or what I would call ``demand'' and how the 
capacity to deliver and meet that need has been flat and in 
some cases from a resource standpoint, has declined, even in 
this budget. So, I want to get at--because you can argue that 
everything is a priority, but if everything is a priority, 
nothing is a priority, at least that is my experience.
    And so you have got these programs on the VBA side that, 
again, if you administer them well, they will, down the road, I 
think, have a positive effect, not only for the individual 
veteran, but for the entire stakeholder group, including the 
taxpayers.
    So, I look forward to our discussion today. I thank, again, 
the witnesses for being with us this afternoon. I also want to 
thank Chairman Bost again and Ranking Member Esty and Ranking 
Member O'Rourke for his partnership on the Committee as we 
endeavor to serve our veterans.
    Chairman Bost, I yield back.
    Mr. Bost. Thank you, Chairman Arrington.
    I just ask that all other Members waive their opening 
remarks, as per the Committee's custom. And now I want to 
welcome our witnesses who join us this morning, or this 
afternoon, and thank you all for taking the time--
    Mr. O'Rourke. Mr. Chairman?
    Mr. Bost. You know, I was just going to go to you. Would 
you be ready to make your opening remarks?
    Mr. O'Rourke. I, in the interests of time and also my 
tardiness, I would waive my opening remarks.
    Mr. Arrington. You know what? It is just like a Texan, Mr. 
Chairman, to make a dramatic entrance like that.
    Ms. Esty. But then to yield.
    Mr. O'Rourke. And then you yield.
    Mr. Bost. Okay. Well, our first witness is the Board of 
Veterans' Appeals Chairman, The Honorable Cheryl Mason. She is 
accompanied by Mr. James Manker, VBA's Acting Principal Deputy 
Under Secretary for benefits, and Mr. Lloyd Thrower, the Deputy 
CIO, and Benefit Accounts Manager for VA's Office of 
Information and Technology.
    For our VSO witnesses, first is Mr. Matthew Shuman, the 
Director of Legislative Division for The American Legion. Also 
joining us today is Mr. Shane Liermann, Assistant National 
Legislative Director for the DAV. Finally, we are also joined 
by Ms. Lauren Augustine--Augustine, how bout that--Director of 
Policy for the Student Veterans of America. I want to remind 
all witnesses that your complete written statement will be 
entered into the record here today.
    Chairman Mason, you are now recognized for 5 minutes to 
present the Department of Veterans Affairs testimony.

                  STATEMENT OF CHERYL L. MASON

    Ms. Mason. Thank you. Good afternoon, Chairman Bost--I'm 
sorry--Bost and Arrington, Ranking Members Esty and O'Rourke, 
and distinguished Members of the Subcommittees. Thank you for 
the opportunity to testify today in support of the president's 
fiscal year 2019 budget, including the fiscal year 2020 
advanced appropriations request.
    I am accompanied today by Mr. Jamie Manker, acting 
principal deputy Under Secretary for benefits to VBA, and Lloyd 
Thrower, deputy chief information officer, account manager for 
benefits from OIT.
    While the unwavering support and leadership of our VA 
Committees, Congress passed groundbreaking legislation on VA 
accountability, appeals, modernization, the Forever GI Bill, 
and personal improvements.
    The fiscal year 2019 budget fulfills the president's strong 
commitment to all our Nation's veterans by providing the 
resources necessary to improve the care and support our 
veterans earned through sacrifice and service to our country. 
The president's fiscal year 2019 budget requests of $109.2 
billion in fiscal year 2019 is an increase of $1.5 billion over 
the fiscal year 2018 budget advanced appropriations request and 
$121.3 billion in fiscal year 2020 VBA's--for VBA's mandatory 
advanced appropriations.
    In addition, the budget requests a discretionary funding of 
$2.9 billion for VBA and $174.7 million for the Board of 
Veterans' Appeals for claims and appeals processing. The budget 
request would allow VA to sustain the claims processing 
improvements while concurrently focusing on the secretary's 
priorities to modernize VA's systems and services, provide 
high-quality efficient care and services, and keep up the 
latest technology and standards of care.
    For the Board, the fiscal year 2019 request of $174.7 
million is $19.2 million above the fiscal year 2018 budget and 
will sustain the 1,025 full-time equivalent employees who will 
adjudicate and process legacy appeals while implementing the 
Appeals Modernization Act at the Board.
    VBA's fiscal year 2019 budget requests supports the 
disability compensation benefits programs for millions of 
veterans and their survivors. The budget also reflects a 
sustained commitment to deliver 1.3 rating claims and 187,000 
higher-level reviews and decrease the amount of time veterans 
are waiting for decisions.
    In August 2017, the president signed into law, the Veterans 
Appeals Improvement and Modernization Act of 2017, representing 
the most significant statutory change to impact VA claims and 
appeals, we have seen in much--in a long time and provided 
much-needed reform. The new system, still in the implementation 
phase, provides a more efficient claims and appeals process for 
veterans. Within VBA's 2019 requests, the $74 million which 
will be used for 605 appeals processing FTEs.
    Section 4 of the Modernization Act also authorizes the VA 
to develop programs to testing assumptions relied upon in 
planning; accordingly, VBA launched the RAMP, Rapid Appeals 
Modernization Program, in November of 2017. The initiative 
allows eligible participants the voluntary option to have their 
decisions reviewed to higher-level review or supplemental claim 
line, as outlined in the act.
    Additionally, the Board is exploring a pilot program that 
will allow the Board to make predictions about timelines and 
productivity, test assumptions regarding appeals modernization, 
streamline processes in anticipation of full implementation, 
and find efficiencies.
    On August 16th, 2017, the president signed into law, the 
Forever GI Bill Act, which is the Harry W. Comery Veterans 
Educational Assistance Act of 2017. This includes the most 
comprehensive change to GI Bill benefits since the enactment of 
the Post-9/11 Veterans Educational Assistance Act in 2008. This 
bill provides access and availability to educational benefits 
for eligible veterans and fundamentally changes the way we view 
the GI Bill.
    VA is also proud to be part of the Transition Assistance 
Program interagency partnership. In 2017, VA made a strategic 
decision to do a complete redesign of that curriculum. Since no 
two military-to-civilian transitions are the same, the 
redesigned curriculum is personalized to each transitioning 
servicemember. VA looks forward to continuing to work with 
Department of Defense and Department of Labor and all of our 
other partners to improve and streamline TAP.
    The Fiduciary Program requests $22 million in the fiscal 
year 2019 budget for an additional 225 FTEs to protect benefits 
paid to some of the most vulnerable beneficiaries, who, because 
of disease, injury, advanced age, and being below the age of 
18, are unable to manage VA benefits. There has been an over 60 
percent increase in the active beneficiaries from the end of 
fiscal year 2011 to the end of fiscal year 2017. The requested 
resources will increase the capacity of VA to process 
approximately 16,500 field exams.
    Thank you for the opportunity to appear before you today to 
address the fiscal year 2019 budget. The resources will honor 
the president's commitment to veterans by providing the high-
quality benefits our veterans have earned. The budget will 
support the secretary's efforts to achieve his top priorities. 
Thank you for your support, and we look forward to responding 
to any questions that you have. Thank you.

    [The prepared statement of Cheryl Mason appears in the 
Appendix]

    Mr. Bost. Thank you, Chairman Mason.
    Mr. Shuman, please be--give--start your testimony with 
the--for The American Legion, please. Thank you.

                  STATEMENT OF MATTHEW SHUMAN

    Mr. Shuman. Making a promise is easy. Honoring the promises 
you made, particularly, in the heated political climate we find 
ourselves in, is more difficult.
    Chairman Bost, Chairman Arrington, Ranking Members O'Rourke 
and Esty, and distinguished Members of the Committee, on behalf 
of Denise H. Rohan, national commander of The American Legion, 
and our 2 million members, we thank you for the opportunity to 
present our position on President Trump's proposed fiscal year 
2019 budget for the Department of Veterans Affairs.
    The American Legion appreciates the president following 
through with the promises he made on the campaign trail to take 
care of those who have served the United States in uniform. At 
a time when most Federal agencies are experiencing a decrease 
in their respective budgets, the VA will hopefully, with 
assistance from these two critical Committees, receive a much-
needed increase.
    Acknowledging my time before you is short, I will focus on 
a few critical topics. 2017 was a productive year for veterans' 
legislation. There is now doubt about that, sir. One bill The 
American Legion championed in concert with this Committee was 
modernizing the appeals process. Now that appeals modernization 
is being implemented, we need to be sure the legacy appeals or 
the older appeals are not forgotten and given the due process 
they deserve.
    The American Legion is thankful to see the increase of 
funding for the Board of Veterans' Appeals and to maintain the 
current 1,000 FTEs and hire an additional 600 employees to 
address the appeals modernization reform and focus on the 
legacy appeals. Some of these claims are older than I am and 
that is simply embarrassing.
    Shifting focus, after a veteran's claim has been 
adjudicated, they are often eligible for access to the 
Vocational Rehabilitation and Employment Program, or also known 
as VocRehab. This program provides comprehensive services and 
assistance, enabling veterans with service- connected 
disabilities and employment handicaps to achieve maximum 
independence in day-to-day living, become employable, and 
maintain suitable employment.
    Our concern is simple. If funding is increased to process 
more claims and appeals and those claims are, indeed, 
adjudicated, it would increase the applicant pool for VocRehab. 
If funding is not increased for VocRehab to hire more staff and 
process the eligible applicants, the potential to overload the 
applicant pool and the program as a whole, increases 
exponentially; therefore, The American Legion would encourage 
this Committee to increase funding for the VocRehab program, 
which is simply charged with helping veterans become more 
productive.
    In terms of the GI Bill, let me first thank you, Chairman 
Arrington, and the work that your Committee has done to create 
and pass the Harry W. Colmery Veterans Educational Assistance 
Act of 2017. There is no doubt this bill will help those who 
have served, and The American Legion was and is thankful to be 
part of the largest improvement to the Post-9/11 GI Bill.
    While reviewing the president's proposed budget, we noticed 
he planned to cap the costs of expensive flight- training 
programs at institutions of higher learning. The American 
Legion understands and applauds the Trump administration or why 
the Trump administration has chosen to include this in their 
budget request; however, we can only support this provision if 
the funds saved from implementing the caps is returned to fund 
other programs, such as the GI Bill or bettering the transition 
process.
    Lastly, and I would be remiss if I didn't mention this, Mr. 
Chairman, I sit before you today on the ninety-ninth birthday 
of The American Legion, meaning that for 99 years, we have done 
exactly what I am doing today: advocating for those who have 
selflessly defended and served this great and beautiful Nation 
against the evil-doers of the world.
    I extend a sincere proceedings from our 2 million members 
to each of you for your dedication to veterans and The American 
Legion. I can honestly say that we are very much looking 
forward to the next 99 years.
    Before I end, I will quickly remark, in terms of the COLA 
comment that you made earlier, Ranking Member Esty, and that is 
exactly the testimony I render this morning, The American 
Legion is absolutely opposed to that and stands with you.
    In closing, Chairman Arrington, Chairman Bost, Ranking 
Members O'Rourke and Esty, and the distinguished Members of the 
Committee, The American Legion thanks you for the opportunity 
to share with you this afternoon and I am happy to answer in 
questions that you may have.

    [The prepared statement of Matthew Shuman appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Shuman, and happy birthday.
    So, Mr. Liermann, you may begin your DAV testimony.

                 STATEMENT OF SHANE L. LIERMANN

    Mr. Liermann. Thank you. Messrs. Chairmen, Ranking Members, 
and Members of the Subcommittees, on behalf of DAV, we thank 
you for the opportunity to present our recommendations for the 
fiscal year 2019 Veterans Benefits Administration and Board of 
Veterans' Appeals budget.
    I would like to note our funding recommendations were 
developed with our partners in the Independent Budget, 
Paralyzed Veterans of America, and the Veterans of Foreign Wars 
of the United States. Our written testimony contains our 
complete recommendations and today, I will briefly discuss a 
few of those items.
    Overall, we recommend approximately $3.1 billion for VBA 
for fiscal year 2019. The administration's budget request for 
VBA is approximately $2.9 billion, roughly $200 million less 
than our recommendation.
    In reference to compensation service personnel, we 
recommend 900 additional employees for VBA, requiring an 
estimated $92.4 million increase. Of those additional 
employees, we recommend 500 to address the pending and future 
appeals backlog and workload; another 350 to address non- 
rating related work, such as dependency claims; and 50 
employees for the fiduciary services.
    By comparison, the administration's budget seeks 605 
additional employees to implement the new appeals process and 
reduce the inventory of pending appeals. We appreciate the 
administration's commitment to reducing the large amount of 
legacy appeals, however, there is a need to address the 
additional staffing for non-rating related work.
    In reference to Vocational Rehabilitation and Employment 
services, we estimate that they will need an additional 143 
employees in fiscal year 2019 for a total direct workforce of 
1,585, in order to achieve the 1:125 counselor-to-client ratio. 
Counselors manage an active caseload and provide support 
services to almost 150,000 participants. This addition of 143 
employees would require an increase of $18 million.
    We are disappointed by the administration's proposal for a 
decrease of $250 million for VocRehab. While we understand this 
is partly due to lower pricing for the Transition Assistance 
Program, this decrease completely disregards the increased need 
of VocRehab services for veterans, even years after they have 
separated from service. The administration even acknowledges 
that since 2013, participation in VocRehab has increased by 17 
percent; however, staffing levels having remained stagnant.
    In reference to the Board of Veterans' Appeals, we do not 
recommend any additional staffing for fiscal year 2019, 
however, it is critical that the Board complete the hiring and 
training of new personnel for 2018. With the full 
implementation of the Appeals Modernization Act expected in 
February 2019, it will be critical for VA and Congress to 
carefully and regularly monitor workloads, timeliness, quality, 
and other metrics to ensure that the Board is and remains 
properly staffed in the future.
    Within the administration's proposed budget, there are 
several legislative proposals that we find troubling, as they 
could have significant negative impact for veterans and their 
families. First, we oppose the rounding down of veterans' COLAs 
for 10 years. This proposal would reduce veterans' benefits by 
$3.1 billion over a 10-year period and reducing veterans' 
earned benefits for the sake of budgetary savings is not 
consistent with this Nation's sacred obligation to care for 
veterans and their families and DAV adamantly opposes this 
proposal.
    Second, we object to the proposal that seeks to narrow the 
Agent Orange presumptives by redefining herbicide agents and 
stating they were only used in Vietnam. Currently, herbicide 
agents are defined as those containing dioxins, specific acids, 
and any other chemical compound currently found in herbicides. 
We strongly oppose this proposal to limit disability benefits 
based on this narrowing of the definition of herbicide agents.
    Third, we oppose the proposal to intentionally increase the 
evidentiary threshold before the VA is required to order a 
compensation and pension examination.
    And, finally, we object to the proposal to eliminate 
compensation payments to survivors and the estates of deceased, 
named, or class members for Agent Orange presumptive diseases.
    Messrs. Chairmen, we thank you for the opportunity this 
afternoon. And this concludes my testimony. I would be pleased 
to answer any questions you or any Members of the Subcommittee 
may have.

    [The prepared statement of Shane L. Lierman appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Liermann.
    Ms. Augustine, you are now recognized for the Student 
Veterans of America.

                 STATEMENT OF LAUREN AUGUSTINE

    Ms. Augustine. Thank you. Chairmen, Ranking Members, and 
Members of the Subcommittees, thank you for inviting Student 
Veterans of America to provide testimony on the Department of 
Veterans Affairs fiscal year 2019 budget submission. We will 
discuss our general concerns with the current budgetary 
process, concerns specific to the Forever GI Bill 
implementation, and Vocational Rehabilitation and Employment, 
VR&E, budget requests, and suggestions to strengthen how VA 
supports student veterans.
    Concerns with the lack of regular order around the budget 
process are consistent talking points within the veteran 
advocacy community; nevertheless, the need for predictable 
government funding is reiterating. Even with VA's robust 
advanced appropriation funding cycle, the step and repeat of 
continuing resolutions and looming threats of government 
shutdowns leaves student veterans with questions and 
uncertainty.
    The recently passed Bipartisan Budget Act of 2018 is an 
appreciated first step towards resolving that uncertainty. And 
as the next iteration of funding requirements comes due in the 
immediate days, we hope to see continued compromise.
    As the budget process does continue, we highly encourage 
sufficient support and appropriations for readjustment benefits 
largely comprised of economic opportunity programs within the 
VA budget. VA's budget request calls for an estimated $15.5 
billion in readjustment benefit obligations in 2019 and $16.1 
billion in obligations for 2020. This does not include the 
discretionary funding requests necessary to administer these 
benefits.
    While making up only a portion of the VA budget, these 
programs are still substantial with billions in annual 
appropriations. More importantly, economic opportunity programs 
should be thought of as an integral part of the empowering 
whole-health model of care VA prioritizes. Programs encompassed 
under the economic opportunity umbrella, like the GI Bill and 
Home Loan Guaranties are proven success stories.
    Specifically looking at the GI Bill, last year SVA released 
the National Veteran Educational Success Tracker, NVEST for 
short, in partnership with VA. The first of its kind, it 
studied 854,000 individual records; every Post-9/11 GI Bill 
user from 2009 in the summer of 2015. The NVEST report outlines 
the many ways student veterans outperform their peers on 
campus, from higher grade point averages, a higher success 
rate, and a propensity to obtain degrees in high-demand fields, 
the data makes clear: Student veterans are worth the investment 
America is making in them.
    With that proven success and through increased access to 
and participation in these benefits, budget obligations 
continue to increase. We, again, encourage the Subcommittees to 
think of such programs as an integral part of the whole of VA 
when advocating for appropriated funds. A large demand on the 
VA's budget related to economic opportunity programs stems from 
implementation requirements for the Forever GI Bill.
    As the leader of a coalition of over 60 organizations that 
helped see Forever GI Bill become law, SVA commends VA and its 
dedicated staff for the ongoing public outreach effort to make 
those affected aware and to clear dedication to successfully 
implementing the new law; however, as detailed in VA's budget 
request, VA needs sufficient resources appropriated to fully 
implement the Forever GI Bill. Specifically, while we 
appreciated the authorized IT funds to help implementation, 
these funds have yet to be appropriated. We encourage the 
inclusion of such appropriations as soon as possible, given the 
decreasing implementation window. Additionally, SVA encourages 
including sufficient appropriations to meet VA's expected 
staffing needs to address increased oversight and usage 
expectations.
    A second major program within VA's readjustment benefits is 
the VR&E program. We believe it is necessary to meet the 
current appropriations needs VA outlined in its budget request; 
however, Congress should also address some of the underlying 
resource issues and proactively improve the VR&E program. For 
example, given the highly individualized nature of the program, 
there is a strong need to ensure proper counselor-to-veteran 
ratios as mandated in Public Law 114-223, which requires one 
full-time employment equivalent for every 125 veterans. We 
encourage these Subcommittees to hold VA accountable to that 
ratio in their budget request.
    SVA is a solution-oriented organization and we appreciate 
the willingness to collaboratively address our concerns 
alongside the Members of these Subcommittees. Our concerns with 
the VA budget request have one common denominator: at present, 
the VA's current enterprise structure is lacking a formal 
leadership role for economic opportunity programs. To address 
that, SVA strongly supports the creation of a new 
administration within VA, the veteran economic opportunity 
administration, which would include under secretary-level 
representation for programs supporting economic opportunities 
and transitions of veterans and their families. We feel this 
new administration would be a re-focusing of existing resources 
that modernizes VA and creates greater accountability for 
economic opportunity and transition programs. SVA's detailed 
support for this new administration will be the focus of 
upcoming testimony on pending legislation.
    We thank the Chairmen, Ranking Members, and the 
Subcommittee Members for your time, attention, and devotion to 
the cause of veterans in higher education. Thank you.

    [The prepared statement of Lauren Augustine appears in the 
Appendix]

    Mr. Bost. Thank you, Ms. Augustine.
    And I am going to begin the questions. Chairman Mason, your 
testimony indicates that the Board is exploring a pilot program 
as an extension of RAMP to help expedite certain legacy appeals 
prior to the full implementation of the appeals reforms. Can 
you please describe why you feel the pilot program will provide 
useful information if it is scheduled to begin in October of 
2018 when the reform is expected to go live on February 2019, 
less than four months later.
    Ms. Mason. Certainly, Chairman. The Board is working with 
digital service and OIT and our program-management team from 
OEI in VA to look very closely at what we can do within a pilot 
program to address concerns from both, GAO and this Committee, 
about timeliness and productivity, as well as be able to test 
how those veterans with going to choose the lanes they are 
going to choose. And if we can do so in October of 2018, 
beginning of fiscal year 2019, we will be able to pivot very 
quickly with our partners to impact any changes we need before 
February of 2019.
    Mr. Bost. Yeah, that is a pretty quick pivot.
    So, also, and if you can, just as brief as you can, but if 
Congress increases the Board's budget at the president's 
request, how long will it take to address the 155,000 appeals 
currently pending at the Board?
    Ms. Mason. We don't--we are working on a timeline on that. 
As you know, we do start implementation of--plan to start 
implementation of the appeals modernization in February of 
2019, if not before, with the pilot. That means we are going to 
be running both, the direct--both all five dockets at the 
board, so we will need to balance the legacy cases, as well as 
the 365 lane, which we will be working those veterans' cases 
through as quickly as possible. To date, in 2018, the Board has 
completed 34,300 decisions for veterans, which is a record 
number for us.
    Mr. Bost. Okay. According to the president's budget, the VA 
projects that the Board will issue 81,000 BVA decisions this 
year. Even if this occurs, how is the Board planning to address 
its current appeals inventory, given the VA projects that the 
Board will receive more than 90,000 appeals during that same 
time period?
    Ms. Mason. Mr. Chairman, we are on track right now. In 
fact, we are running ahead--we are running a little bit over 
100 percent for delivery of that 81,000, so I expect to exceed 
that 81,000 decisions this year for fiscal year 2018.
    As far as going into fiscal year 2019, we are continuing to 
streamline our processes and re-engineer things, including the 
new interactive decision tool that we are piloting right now 
with the Board to speed up decision-rating times. I am also 
exploring case-review options for our attorneys which would 
allow a quicker case-review time to allow attorneys to get to 
decisions quicker, to resolve--and quicker decisions out the 
door. So, those things, in addition with the technology 
increase that digital services is giving us, which is ongoing, 
are the ways we are going to deliver those results.
    Mr. Bost. I don't--you are just--I don't see that you are--
you are not breaking even with the numbers the way they look, 
and I am hoping you can, I really do. Let me move on.
    Mr. Manker, I am going to ask you a question that I asked 
the full Committee hearing--I asked you in the full Committee 
hearing, but hopefully you will give a better response, because 
I think I kind of caught you off guard then.
    Mr. Manker. Sure, absolutely.
    Mr. Bost. The fiscal year 2019 budget request, an 
additional 605 full-time equivalents for FTE--
    Mr. Manker. Yes.
    Mr. Bost [continued]. --that would dedicate to the VBA 
appeals. Will the VA assign these employees to process legacy 
appeals or process appeals under the new system?
    Mr. Manker. So, the way we will assign the new 605 FTE that 
we are getting in our appeals lane is to use just as many as we 
need to achieve our 125 days for those that opt-in to or file 
an appeal after February of next year. So, any additional FTE 
will be used to work legacy appeals.
    Additionally, as I look--as you look at our production thus 
far, in January of 2017, we stood up an appeals management 
office and we took all the FTE that were allotted for appeals 
and we focused them solely on appeals. Since we have done, that 
we have increased production in the appeals lane by 24 percent.
    With the opt-in, we are hoping that we can get many of the 
appeals, the legacy appeals to opt-in to the new process; that 
is that RAMP process that we talked about.
    Mr. Bost. Okay. So, what you are saying is it will be both?
    Mr. Manker. That is exactly what I am saying.
    Mr. Bost. Okay. Well, I hope, because we would like to see 
this move as fast as possible.
    I am out of time and I will recognize Ranking Member Esty.
    Ms. Esty. Thank you, Mr. Chairman. And, again, thank you 
all for your hard work and your testimony before us here today.
    I want to start--there are a lot of places we could start--
but with Mr. Liermann. You had mentioned concerns about the 
Agent Orange exposure. As you may know, I, and others on this 
Committee, have been vigorously seeking attention with the 
current veterans who are suffering from burn pit and other 
toxic exposures. It is an issue of great concern for us, so, 
certainly, your comments stood out to me.
    Can you amplify a little bit what you think this means for 
both, current veterans who may have appeals in the system, but 
also what it may mean as we are facing this whole new round of 
veterans who are actively asking us to take action before this 
becomes a 30-year wait for a new generation of the equivalent 
of Agent Orange, if you would, please?
    Mr. Liermann. Yes, thank you. The way it is being proposed 
in the budget is they want to redefine Agent Orange or 
herbicides, specifically only those toxins that have TCDD. They 
also want to say that only those toxins cause any of the 
presumptive disabilities and they also want to say that that 
toxin was only used in Vietnam and nowhere else.
    So, by narrowing that scope and redefining, that means that 
any veteran who has a disability related to herbicide exposure 
outside of Vietnam, such as on at Korean DMZ or Blue Water Navy 
or even in Thailand, would no longer be able to claim that 
because of the re-definition down. We disagree with that, as I 
noted, because the current statute doesn't define it that way. 
It defines it as toxins, acids, and chemical compounds found, 
and we think it should stay that way, so it doesn't affect any 
current veterans receiving benefits and any pending appeals, as 
well.
    Ms. Esty. Thank you. And I know we hear from the Blue Water 
veterans in my district all the time, as well as people who 
served in Laos, Cambodia, and who had exposure in other places 
where, in theory, we were not actually engaged in activities.
    Mr. Shuman, if you--as we are trying to figure out if we 
are going to be on track for all of the new appeals, we have 
spent a lot of time--the VSO worked very hard to help us on the 
moderation--do you have access to the materials that--to VA 
leadership as the rollout is happening, to give feedback? And 
we would enjoy it and we need it here, but, as well, do you 
have access to VA leadership and materials from them about how 
this is being processed, how this is being received, so that we 
can roll it out in the best way possible and have RAMP actually 
be successful?
    Mr. Shuman. Well, thank you for the question, ma'am, and 
the answer is yes. The American Legion, I think, is meeting 
with Ms. Mason rather often. She's probably tired, as we are, 
of some of our colleagues, Lou Celli, in particular, but, yeah, 
absolutely, we meet with them frequently and get the necessary 
information we need in our engaging conversations to make sure 
that the program works to its best.
    Ms. Esty. What are you finding about outreach? That is 
obviously a concern that is, indeed, much of what you as VSOs 
do is help provide that outreach. What are you hearing so far? 
What do we need to do know about the VA's efforts itself, how 
the VSOs fit into that, and what, if any, additional guidance 
or resources might be needed from this Committee to assist in 
this process?
    Mr. Shuman. Well, thank you for that question, as well. I 
think that is one area that always can be better improved is 
communicating to the veteran community, particularly for the 
hundreds of thousands of claims that are currently in process, 
trying to figure out, and make sure that they are educated to 
make the best decision, whether they need to move over to the 
new system or not.
    I know we work particularly closely with VA to share that 
with our Members and I am sure my colleagues here at the table 
do the same as well. I would be happy to answer that a little 
bit more in-depth after discussing that with my team to figure 
out where they are and exactly what we are hearing from our 
Members.
    Ms. Esty. Thank you. Because I do think that that is very 
important, as if we are going to be successful in this, we need 
to be learning what best practices are, which may differ in 
different areas and I just wanted to underscore, again, our 
concern, which you are going to hear from everyone here about 
the legacy appeals. It is very important to move these new 
appeals forward, but in fairness to the World War II and Korea 
veterans in my district who have been waiting a very long time, 
I think we all owe it to them to make sure that those legacy 
appeals don't just disappear.
    Mr. Shuman. You are right, they deserve it, ma'am.
    Ms. Esty. They deserve it. And, again, I want to thank 
everyone for their efforts. But we--our veterans served us, and 
we need to ensure that we are effectively serving them.
    Thank you, and I yield back.
    Mr. Arrington. [Presiding] I want to thank the Ranking 
Member. I will now take 5 minutes for questions and I will 
start, Madam Chairman, with you and your team. Thanks for being 
here and please feel free to defer to your colleagues if you 
think they can better answer the question.
    Is the Vocational Rehab Program working?
    Ms. Mason. I am going to defer to Mr. Manker on that 
question.
    Mr. Arrington. Okay. Let me back up. What is the--define 
success for the Vocational Rehab Program.
    Mr. Manker. So, success for the VocRehab program is 
completing--getting a veteran to where they are employable or 
can live an independent life is my--
    Mr. Arrington. Okay. So, that is education, training, 
employment? It is all the above and in terms of services.
    Mr. Manker. That's right.
    Mr. Arrington. Okay. How is it going? Is the working? Are 
we helping our veterans and are they achieving those desired 
outcomes?
    Mr. Manker. So, from our perspective, I believe so.
    Mr. Arrington. What is your perspective; is that something 
you just feel in your gut or do you have a scorecard? Do you 
have a survey?
    Mr. Manker. So, we measure VocRehab as successful outcomes. 
I apologize for not having that information in front of me.
    Mr. Arrington. That is okay. I didn't warn you about this, 
but I just--part of it is I need to do an oversight hearing, we 
do--
    Mr. Manker. Absolutely.
    Mr. Arrington [continued]. --on the VocRehab. We have done 
on it on every other program--
    Mr. Manker. That's right.
    Mr. Arrington [continued]. --and I don't like to get--I am 
on the budget Committee and this business of giving money and 
talking about money and how to invest money wisely without 
having a review, oversight, and re-authorization drives me 
crazy. So, I just wanted to get some top line feedback from 
you.
    Mr. Manker. Absolutely.
    Mr. Arrington. Do you have the numbers, and do they 
demonstrate that this VocRehab is serving the customer, our 
veterans, our disabled veterans.
    Mr. Manker. What I would like to do is have Mr. Jack 
Kammerer, who is our director for VocRehab, come back and talk 
to you about that. But I would like to address--
    Mr. Arrington. Do you have a sense that it is working, 
though, that in terms of the numbers, do you think they are 
there? If I--if the Committee gets those numbers, will they be 
positive? Will they show a successful program?
    Mr. Manker. Again, from my perspective, yes. We have looked 
at the program and there are some veterans that were in the 
program for a long time that have basically gone dormant, if 
you will, have kind of opted out, not working in the program, 
and we have--
    Mr. Arrington. Let me just--and I don't mean to be rude, 
but--
    Mr. Manker. Sure.
    Mr. Arrington [continued]. --do you think it is an 
important program?
    Mr. Manker. I absolutely think it is an important program.
    Mr. Arrington. I want everybody that comes to the table to 
talk about money to know about the program's effectiveness.
    Mr. Manker. Sure.
    Mr. Arrington. And if it does work and it is effective and 
there is a need, then why are we not giving it the time and 
attention and resources the other programs are getting? Because 
like I said before in my opening remarks, there is been an 
increase in demand by 12 percent, but they have cut the program 
$257 million. I recognize that we don't have--even though we 
act like we have all the money that we can print, that is not 
true; someone will pay the piper one day, probably our kids or 
grandkids, but nevertheless, it is about prioritization.
    Is this a priority? Is it working? Why are we cutting the 
money?
    Mr. Manker. So, I am not certain where you are getting the 
257--
    Mr. Arrington. It is in my notes and if it is wrong, then I 
will--I can accept that, too. So, we have talked about flat 
line in terms of the staffing and what I have got here is that 
the staffing has been requested flat at 1442 for the last 3 
years.
    Mr. Manker. That's correct.
    Mr. Arrington. And the proposed budget includes a $257 
million decrease in funds for VR&E. If that is not true, that 
is fine, we can move on.
    Mr. Manker. Right. I am looking at the delta between 2018 
and 2019 of being $59 million and that consists of almost 
entirely, the contract efficiencies that we experience in the 
TAP program.
    Mr. Arrington. Okay. I am going to come back to this, but 
let me pivot to another question in the remaining seconds that 
I have. If this is working, if it is important, if it is a 
priority, then my question is, why have we had the VBA Under 
Secretary or the Under Secretary for benefits vacant since 
2015? Yikes. Yeah, nobody wants to take that--I don't want to 
take that question.
    Mr. Manker. Mr. Chairman, I would love to see an Under 
Secretary for benefits.
    Mr. Arrington. So, let's--you know, look, I mean, I support 
this president 100 percent. I think he is doing most of the 
right things, but I have got to say, we need the political 
leadership. I served in the George W. Bush administration and 
if you don't have the political leadership--and I don't care if 
it is republican or democrat, those guys play a very important 
role in oversight and accountability in driving down the 
policies that we are passing that we expect to be done. So, I 
am really concerned.
    My time is expired, and I don't want to take advantage of 
the chair here, but I am going to come back to this issue 
because we just had a recent resignation as the deputy Under 
Secretary for economic opportunity. I have heard my colleagues 
on the other side of the aisle beat this drum and I haven't 
chimed in because I'm not sure I agree with all the freeze, 
because we need to find savings, efficiencies. We need to do 
things that everybody in the country does in their families and 
their businesses, but this gives me great pause in terms of the 
commitment.
    Ms. Mason. Congressman, just really quickly, there is a USB 
nominee--
    Mr. Arrington. Okay.
    Ms. Mason [continued]. --currently. There is a hearing 
scheduled for April the 11th.
    Mr. Arrington. April the 11th. Okay. So, it has been vacant 
a while now, you know, three years, but you have got somebody 
in the queue.
    Okay. My time is way expired and I promise you, I will give 
you guys all the time you need. So, Mr.--my Ranking Member from 
the Great State of Texas--
    Mr. O'Rourke. You might want to let Mr. Takano go first. I 
came after him.
    Mr. Arrington. You bet. Mr. Takano, I yield 5 minutes to 
you.
    Mr. Takano. Thank you, Mr. Chair. Yeah, I was happy to see 
that close to the requested $30 million for Forever GI Bill IT 
implementation is in the budget. Do you feel that the 
implementation is proceeding on track and that the funds will 
be required to fully implement the bill are available?
    Mr. Thrower. Okay. Thank you for the question. I would say 
that right now that the implementation is going quite well. We 
are--I will, as context, would like to make sure that you 
understand that we are implementing--the timing of this was 
interesting because we began implementing--the statute was 
passed at the same time we were already in the midst of the 
very substantial overhaul of education systems with the work to 
retire the benefits deliver network. We are--and so we are 
balancing. The issue of trying to build the plane while you are 
flying it is kind of interesting in dealing with that.
    So, we have had a very strong partnership with education 
services to identify those specific pieces of the bill that we 
need to get in place through systems very quickly in order to 
make sure that all the benefits that are in the statute are 
implemented properly. We identified those Sections, 501 and 
107, as well as correcting a lot of--we are making a lot of 
changes to the letters that go out to veterans, so they 
understand the ``forever'' part of the Forever GI Bill. We are 
implementing those, and we are very much on track of having 
these aspects onboard, as needed.
    We are--at the same time, we are proceeding--
    Mr. Takano. Okay. Mindful of my time, I just want to make 
sure we get other folks to weigh in on implementation, so thank 
you.
    Anybody else here want to make a comment?
    Ms. Augustine. Yes, thank you, sir, for the question. I 
would like to weigh in on that we.
    As was stated in our testimony, we appreciate the VA's 
robust outreach efforts as it relates to Forever GI Bill 
implementation and their dedication in the budget request to 
address their implementation needs. We have been impressed with 
their ability--their willingness to have stakeholder engagement 
on the implementation process.
    I would like to request that the VA be as robust in their 
public outreach efforts moving forward. And I would also be 
remiss if I did not, again, request that the appropriations 
necessary to fully implement the bill, specifically the IT 
needs, were appropriated quickly. Most of provisions go into 
effect this August and that window is quickly decreasing, so 
the appropriated funds are necessary now.
    I also would like the VA include in their outreach efforts, 
knowledge of why changes are being made, specifically, as it 
relates to the VAH payments, so a delineated information about 
monthly payments that they are receiving through e-Benefits or 
some sort of notification would be very helpful in helping 
veterans understand why things are changing, why benefits they 
are seeing might be fluctuating. Thank you.
    Mr. Takano. Okay. Great. Anybody else?
    Okay. Regarding the GI Bill, this is a question to the VA, 
do you have any data on how many veterans have applied for GI 
Bill restoration and have their funds been restored?
    Mr. Manker. So, we have notified over 8,000 veterans that 
were affected and thus far, we have restored over 300 
entitlements.
    Mr. Takano. And do you have a dollar figure for what that 
would be?
    Mr. Manker. Sir, I'm sorry, I don't have that.
    Mr. Takano. It would be great if I could get that dollar 
figure.
    Mr. Manker. Absolutely.
    Mr. Takano. That would be greatly appreciated. I am 
extremely disappointed that we are seeing in the Higher Ed 
bill, a complete elimination of the 9010 rule. There is no 
guard rails at all. The Department of Education is--the 
regulatory process is going full speed ahead to give--the GI--
the Inspector General's own report in the Department of Ed is 
fearful of what these regulatory rollbacks are going to do in 
terms of increasing the for-profit predatory behaviors in the 
for-profit higher-ed sector, and I am just very fearful about 
what this will mean for liability to taxpayers going forward, 
especially because these schools target our veterans.
    Thank you, and I yield back.
    Mr. Arrington. Thank you, Mr. Takano.
    And now I yield 5 minutes to my Ranking Member from the 
Great State of Texas, Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. I would love to 
begin with a question for Mr. Manker, only because I just--we 
all just received testimony from the Gold Star Wives--Gold Star 
families yesterday, survivors of those who were killed serving 
this country, and just had the chance to meet with a few of the 
Gold Star Wives in my office just now.
    And I want to bring up two issues, which you may or may not 
have an answer for, but I at least want to make sure they are 
registered with you and that we get to follow up with you and 
get a precise answer. One surviving spouse told me how every 
year she receives a form in the mail that she has to fill out 
and certify that she has not remarried and she said, you know, 
as simple as this sounds, there is a shock to the system every 
year when we receive this. Is there some way to just, if in the 
case that you do re-marry, you can send something affirmatively 
to the VA? I am not exactly sure who handles it. You may not 
have an answer, but I would love for you to get back to me on 
that one.
    Mr. Manker. Certainly.
    Mr. O'Rourke. And I shared with them that I was going to 
see you and that I would raise that.
    Mr. Manker. Okay.
    Mr. O'Rourke. The other, more generally speaking, for Gold 
Star families, what, if anything, does the Office of Survivor 
Assistance need in terms of additional resources or authorities 
that you do not have already? Again, if you don't have an 
answer, let me know, and we will come back to you on it.
    Mr. Manker. I absolutely will. I will get back to you on 
that.
    Mr. O'Rourke. Okay. And then for the VSOs, Mr. Shuman, I 
really appreciate your comments on Vocational Rehab. I feel 
like a number of us have addressed that. The Chairman has asked 
some good questions.
    For DAV and Mr. Liermann, on the toxic exposure, I was 
struck by how many of the VSOs, from VFW to VVA to IAVA, raised 
this issue. And we absolutely have to get it right for all the 
reasons that you described, and the more narrowly we define 
``exposure,'' the fewer people we are going to be able to help, 
the more are going to die without treatment or care from the 
Government that put them in harm's way in the first place. So, 
I just thought your comments were wonderful and I think they 
hit home with all of us.
    And Ms. Augustine, you and SVA have just been terrific in 
working with Chairman Arrington and me in the Committee on 
Economic Opportunity on Forever GI Bill and other issues 
involving integration after service. I love your question about 
IT. Just in a sentence or two, were you satisfied with the 
answer that you received from VBA?
    Ms. Augustine. Yes, and we look forward to continuing to 
work with them. Thank you.
    Mr. O'Rourke. Great. You also mentioned an office of 
veteran economic opportunity. And without getting into the 
wisdom of whether we move that around, in the big picture, 
where are you missing--where does SVA think we are missing 
urgency on economic opportunity issues? I know that our 
Chairman is doing a wonderful job on this; he has convened a 
number of roundtables, with which--that you all participated 
in. Where are you missing either resources or urgency or 
attention from the VA side of the House right now?
    Ms. Augustine. Thank you for that question. As the 
Chairman, himself, said, there is generally less attention 
given to economic opportunity programs and we feel that is 
because it is currently under VBA. And VBA is primarily 
focused, as they should be, on disability compensation, as that 
is the bulk of their budget.
    However, economic opportunity programs are a proactive, 
empowering part of the VA's mission that can address many of 
the problems and issues facing VHA and VBA farther down the 
road, which we think validates the need for its own 
administration. It also would allow greater accountability for 
the Subcommittee who does a wonderful job bringing attention to 
the programs and benefits within economic opportunity. It would 
allow greater accountability for you all to have somebody 
sitting here to ask these questions and make sure you are 
getting somebody you can hold accountable to answer those 
answers.
    Mr. O'Rourke. Yeah, and just on those three issues, Mr. 
Chairman, and Ms. Ranking Member, I just--I think if you all 
could be our guides on this issue and help to hold the VA, as 
well as the Committee, accountable for follow-through and 
delivery. I know the Chairman is really big on accountability 
and being able to measure and I like that, and I want to make 
sure that as we implement, for example, the Forever GI Bill, as 
we work on toxic exposure, and Vocational Rehab, that you all 
help us in terms of giving us the feedback on how effective we 
have been as a government on these issues. You are doing that 
today, but just please continue to do that. We need the help.
    So, thank you for your testimony, and I will yield--
    Mr. Shuman. Congressman--
    Mr. O'Rourke. Yeah, please?
    Mr. Shuman. If you don't mind, Mr. Chairman? I will echo 
the sentiments from Ms. Augustine. Adding a fourth 
administration is critical in making sure that you have 
somebody truly to hold accountable.
    You will hear next week that the VA and others are opposed 
to this idea. Really, having somebody to sit before you, as 
long as we can fill that position, and holding them truly 
accountable to get real answers and the data that you want, is 
supported by The American Legion.
    Mr. O'Rourke. Well, and until we do--and it sounds like 
there is a lot of wisdom in that and we want to make sure--or I 
want to make sure we do the due diligence and hear the full 
argument on all sides--I really think we need more hearings 
like this with the VBA present and informed, maybe a little 
more, you know, I think over time, and maybe some of the 
questions we have already asked for the record and we get 
responses to, we begin to build a record of commitment or a 
record where there are some gaps that need to be filled.
    So, just know that I think this Committee is focused on 
that and we will follow your lead, and then, perhaps, at some 
point, there is somebody specific to hold accountable just for 
these issues within the administration. So, I don't think that 
is a bad idea. I think when you have that single point of 
accountability, you are likely to get better results, so, 
thanks.
    Mr. Chairman, thank you.
    Mr. Arrington. I want to thank the Ranking Member for his 
remarks and now I will yield 5 minutes to my colleague from 
Colorado, Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Mr. Manker, as you 
know, the VA disability compensation system is the single 
largest line item in the VA's budget. Over 4 million veterans 
annually receive disability compensation and the expenditures 
to those with disability ratings are growing at an 
unprecedented rate.
    When this Committee met with Secretary Shulkin last month, 
there was a brief discussion on reducing compensation costs 
through treatments, specifically regarding sleep apnea. Can you 
elaborate on this?
    Mr. Manker. So, the secretary--I will try to echo what he 
said at the last hearing. To the extent that medical treatments 
have advanced, the need to compensate for the loss of income 
earning potential from a disability, we believe may have 
changed. So, as we look at the VA's schedule for rating 
disability, we want to look at it with this new set of eyes for 
a--with a--taking all medical advances into account is really 
what he was saying, much more effectively than I just said it 
just now.
    Mr. Coffman. Okay. So, you think that the statement that 
this would also apply to acne, fever, gout, sinus infections, 
laryngitis, and other treatable disabilities?
    Mr. Manker. So, sir, we are in the throes, as we speak, of 
looking at everybody system that is covered by the VA scheduled 
rating disability and looking at every component of that 
schedule to ensure that we are compensating properly.
    Mr. Coffman. Okay. I yield back.
    Mr. Arrington. The gentleman yields, and I will now yield 5 
more minutes or as much time as she needs, to the Ranking 
Member, Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman. Just a couple quick 
points to follow up on, on this, I think, really important 
discussion about VocRehab. We have talked about it before, but 
I think it is important to talk about it in terms of the budget 
and priorities and, really, Ms. Augustine, you kind of 
underscored some of that as well.
    We have an incentive structure right now which calls upon 
our veterans and pushes them to prove how disabled they are in 
order to get support and then we turn around and, in theory, we 
are trying to re-able them or able them, right? And so I think 
your point about, that is an inconsistent message and mission. 
Perhaps my colleague, Mr. O'Rourke, is right that both of these 
programs should not be in the same administration. I think we 
should be looking at this a little more closely and thinking 
about whether separating the location of those two functions in 
different parts of the VA might help in clarifying things. It 
is currently a problem, because our point should be to enable 
our veterans. And we all need to do a better job on that, and 
it is not inconsistent to say that we are going to give you all 
the help and support we can and then we are going to get you as 
abled as you can be.
    So, my second question, actually, for you, Mr.--and is it 
Thrower or Thrower?
    Mr. Thrower. Thrower.
    Ms. Esty. Thrower, okay. I wanted to make sure we are 
getting that right.
    Mr. Thrower, it is come to my attention that the Blind 
Veterans Association is extremely concerned that the--and, 
particularly, as we rely more and more on Web sites--the Web 
sites are not compliant for those who are visually impaired. We 
have laws in this country that apply to all government agencies 
and if you think about our blind or visually impaired veterans, 
who are increasingly being urged, all of them, to go on to Web 
sites, can you tell us, you know, what efforts are being 
undertaken to facilitate blind and seeing-disabled--sight-
disabled veterans from being able to access Web sites, as is 
required by law.
    Mr. Thrower. Well, thank you for the question--not one that 
I had expected--but I will say that we have a very robust 508 
compliance regimen. We have a series of law--we have a 508 
office that reviews all Web sites as they are launched. That is 
part of the, sort of the ATO, the authority to operate, sort of 
process that we go through.
    I do not have any specific statistics on, you know, where 
we stand in terms of potentially enabling things that have been 
out there a long time, but I do know it is a very serious 
matter within OIT in terms of making sure that we are compliant 
with all 508 standards.
    Ms. Esty. Then, we may follow up with the testimony that is 
been shared with us that is finding it not, in fact. You may 
get compliance by the people who are designing it, but if the 
end-users, the veterans we are here to serve, are not able to 
access, we have a problem, right? Whether it is a legal problem 
or a functional problem, that is one we need to address, so I 
hope we can follow up with you and see--it may meet the 
technical definition, but, again, at the end of the day, 
visually disabled veterans are not able to access the site, 
then, you know, the law is not doing its job and we are not 
doing our job.
    Mr. Shuman, you are nodding your head yes. Anybody have 
experience or can shed some light on this issue?
    Mr. Shuman. I don't have particular experience, Ranking 
Member, but I will agree with you, it doesn't matter if it is 
law. If they are not being able to use it; that really matters. 
So, we stand, again, with you. We are doing a lot of standing 
today with you, to make sure that these--that all veterans, 
regardless of disabilities, are able to access the information 
at VA. You brought up a point that just struck me and I was 
just agreeing with you, ma'am.
    Ms. Esty. Thank you. And--
    Mr. Thrower. And I completely agree with you, as well.
    Ms. Esty. Sure. So, let's take a look at it.
    And the final thing on the VocRehab, I can just tell you 
that those ratios make a difference. You know, it is supposed 
to be 125:1 on the counselors. I know in my district, we do a 
lot of outreach. We have wonderful VSOs; a lot of them serve on 
my advisory Committee. We hear all the time how they can't get 
in to see somebody from VocRehab, and you have people waiting.
    And we do outreach and then they can't get an appointment 
and that is the last thing in the world that we want to be 
doing. So, let us know if that is a resource question, we need 
to know that, or we are not doing our job. We offer this 
promise and then we don't, in fact, make it possible for our 
veterans.
    So, again, thank you for your efforts and I suspect we are 
going to have more work to do together. Thank you, and I yield 
back.
    Mr. Arrington. I want to thank the gentlelady from 
Connecticut, and our Ranking Member, Ms. Esty, for her line of 
questions. And then I am going to now yield 5 minutes or as 
much time as I might consume, which could be a lot of time, 
because I have got a lot of questions, but I will respect the 
fact that you guys are busy and, again, I do appreciate you 
being here. And I am not trying to beat up on anybody, but I 
feel like I always end up in that place where I am, you know, 
beating up on somebody, Mr. Manker.
    But, what is the plan? Let's just speak plainly and 
directly. How are you going to compensate for the increase in 
caseload--case work, among the VocRehab folks?
    Mr. Manker. Sure. One of the things we are looking at, we 
have got a pilot at a couple of ROs where we are taking the 
administrative burden that the VocRehab counselors face in 
filling out the paperwork, making sure that the equipment that 
our VocRehab participants need to rehabilitate themselves, make 
sure they have that. We have looked at contracting the 
administrative portion of that out, so the counselors can 
actually focus on that which we have hired them for, which is 
to be a counselor.
    Mr. Arrington. And you believe that that will compensate 
for the 12 percent increase in caseload for these--
    Mr. Manker. It certainly will help.
    Mr. Arrington. I will tell you that I am not satisfied with 
the visibility and the knowledge and of the efficacy of the 
program and the sort of workload and how we are going to meet 
the new demand.
    Mr. Manker. Sure.
    Mr. Arrington. It is not crisp enough for me. When I hear 
it, I don't get a sense that--I get a sense that you are trying 
to throw everything you can at it to try to meet the need, but 
it is not strategic--
    Mr. Manker. Sure.
    Mr. Arrington [continued]. --and it doesn't seem like it is 
being prioritized.
    I am looking at an org chart. This is the--this is where 
you would be here, as the acting deputy Under Secretary.
    Mr. Manker. Yes.
    Mr. Arrington. And that is a lot of work. That is a lot of 
program and people to oversee. And one side is compensation and 
pension and on the other side is field operation and then right 
here in the middle is the VocRehab and other EO programs.
    How much time, approximately, do you think you spend 
overseeing each of those three legs of the stool here?
    Mr. Manker. So, how much time--
    Mr. Arrington. Approximately how much time do you provide 
in oversight and management of the compensation and benefits--
    Mr. Manker. Sure.
    Mr. Arrington [continued]. --and then the field operation 
and then EO in the middle?
    Mr. Manker. I don't know if I could answer that directly. 
What I can tell you is I have directors assigned over each one 
of those activities that commit all of their time to ensuring 
that the Under-Secretary's vision and my vision are actually 
implemented.
    Mr. Arrington. And the director, he resigned recently?
    Mr. Manker. That was the under--the deputy Under Secretary 
for economic opportunity. He actually did not resign; he 
retired.
    Mr. Arrington. He retired?
    Mr. Manker. Yes.
    Mr. Arrington. But it is a vacant position?
    Mr. Manker. It is a vacant position.
    Mr. Arrington. Okay.
    Mr. Manker. Right now it is being occupied by our deputy 
Under Secretary for benefits parent assistance.
    Mr. Arrington. Do you find continuity a challenge for you 
in terms of managing for excellence and performance to serve 
the customer? Do you find the continuity of leadership or the 
lack thereof, a challenge for you?
    Mr. Manker. So, all of our deputy Under Secretary positions 
and many of our director positions have been in those positions 
for years, so--
    Mr. Arrington. What about the political leadership?
    Mr. Manker. Well, the political leadership, I believe, on 
April 11th we will have a new political, so ...
    Mr. Arrington. Okay. What--you are a manager--well, I won't 
go down that. I think I have exhausted my union speech. I am 
not going to wear out Ms. Esty on it.
    Mr. Manker. I'm not a manager, I consider myself a leader, 
also.
    Mr. Arrington. What is that?
    Mr. Manker. I said I like to consider myself a leader, 
also.
    Mr. Arrington. Let me shift gears a little bit on the IT 
component, because we have had several hearings where IT has 
been a challenge. I know that even in this VocRehab component 
of EO, there was--there were 11,000 VR&E participants who were 
delayed in receiving their subsistence allowance checks and 
that it didn't appear there was much effort to notify them and 
reconcile the situation.
    So, are you aware of that? Has that been resolved? And is 
that IT issue a deeper issue? Can somebody speak to that?
    Mr. Manker. Sure. So, I can speak to--so, as the CFO, the 
way a pay file is processed is generally it occurs before the 
28th of the month. In this case, the VocRehab file, if you 
will, started the process, but as soon as it hit the 28th, it 
stopped processing.
    There should have been some communication that occurred, 
and I take that as a, this has never occurred before. We were 
slow to respond. We were communicating at the local level. We 
should have done more outreach and communication at the 
national level.
    So, we now have a plan, with respect to VocRehab--or we are 
building a plan, anyway--is that should this occur again, which 
I don't believe it will, but should it occur again, that we 
will be a little more aggressive in the way that we respond.
    Mr. Arrington. Is that an organizational management problem 
or is that an IT systems problem?
    Mr. Thrower. I will say that it is actually--you know, 
there were obviously two components to this issue. There was a 
system file that did not run properly and oddly enough--
ironically, it did not run properly because we were putting in 
a patch to make it run faster and better at the same time. It 
was a very unusual circumstance.
    The recovery was--actually within two business days, things 
were fixed and done and processed properly. The--
    Mr. Arrington. My notes say that the participants, after 5 
days, still hadn't been contacted. It could be wrong.
    Mr. Manker. So, the problem is that it had occurred between 
the last two days and on the last two days of the month, no 
processing can go through the system.
    Mr. Arrington. Sure.
    Mr. Manker. So, it was all a timing thing. If we had done 
the patch in the middle of the month as opposed to the end of 
the month--
    Mr. Arrington. Okay.
    Mr. Manker [continued]. --that would have been one thing. 
Communication, again, I take that as one that we should have 
done more aggressively.
    Mr. Arrington. Okay. And I accept that, and I don't want to 
nitpick you. I guess the real question is, because I have seen 
fundamental IT problems where we have spent hundreds of 
millions of dollars on updating legacy systems where we could 
take something off the shelf, where we have customized where we 
should have taken off the shelf or vice- versa and it just--and 
we are just spending our wheels and spending a bunch of 
taxpayer money and to little avail.
    And IT can make us more efficient and effective if we get 
it right. Are there IT root causes in the EO area, especially 
focused on Vocational Rehab in this instance? Are there some 
root IT issues there or is it just a blip on the screen because 
of a patch that you should have just da, da, da, da, da.
    Mr. Thrower. I will say in this particular instance, this 
was blip. It has caused us to actually look at similar 
processes across the board to make sure that this doesn't 
happen, not only here, but anywhere else.
    But at the same time, there are some substantial underlying 
things that we are looking to address. We are in an environment 
where we do have a lot of legacy systems that we are--that do 
hold us back from being as agile as we would like to be; things 
like, as I mentioned earlier, the effort to retire the benefits 
delivery network that is in the education space, will be a 
major milestone in terms of modernizing and updating our 
systems so that we are more flexible and more agile.
    We have a challenge in that a vast majority of our budget 
is spent on operations and maintenance and we are really trying 
to work to change that equation, so, yes.
    Mr. Arrington. Well, I appreciate your candor. You said 
substantial; that gets my attention. And ``waste''--you didn't 
use that word to be fair--but money spent on operation and 
maintenance, it is not necessary to spend if we could get the 
right system in place.
    And then it begs the question again, are we giving enough 
time and attention and resources to this area because it seems 
that when you have got 12 billion new dollars flowing into the 
VA and we have had billions upon billions every year and yet 
this relatively small, but incredibly important component, of 
getting people in a place where they can be self-sufficient and 
productive and fulfilled in their lives and contributing again, 
that just seems that I would--it is kind of like the TAPs 
program. I mean, we spend so much to make these guys and gals 
warriors of the best kind and class in the world and then we 
spend a fraction to assimilate or re-assimilate and prepare 
them for civilian life.
    But I get that feeling altogether, really, on the VocRehab 
and all these EO programs. I just get a sense that they are 
not--and then when I ask about it--and no offense, because you 
have got a big portfolio--but I am not so sure that that is too 
big.
    I am going back now to Ms. Augustine about her comment 
about--let me ask the other folks and be fair to get them 
involved here, but Mr. Shuman, would you comment on, do you 
sense that there is a priority there? And, again, I am not 
trying to pick on anybody. Is it a priority? Is it a resource 
issue? Is it an organizational structure issue? Is it a 
management issue? Is it all the above? I would like for you and 
your VSO counterparts to comment and expound on that.
    Mr. Shuman. Well, thank you, Chairman, and I am going to go 
exactly back to a comment I made earlier. I think this is a 
great idea of why creating a fourth administration, what you 
are able to do is put an Under Secretary at the head of this 
that would work with these fine people to be able to spend and 
give the focus that is necessary. I think that will aid this 
process going forward and it will just be better.
    Mr. Arrington. Okay. Thank you.
    Mr. Liermann?
    Mr. Liermann. Thank you, Mr. Chairman. First off, I am a 
successful outcome of the VocRehab program.
    Mr. Arrington. That is great.
    Mr. Liermann. I, personally, went through the program 
myself almost 20 years ago and I have the career I have now 
because of the time and attention that I received from my 
VocRehab counselor.
    Mr. Arrington. That is awesome.
    Mr. Liermann. But to address the current issue, over the 
last 20 years, I have been helping and assisting other disabled 
veterans get into these programs to get access to benefits. And 
when you look at the current, or at least the last 6 years, 
there has not been an increase in any of the staffing in 
VocRehab for about the last 6 years, so I think there is a 
serious resource issue.
    We can't expect the increase of participants to continue to 
go up and not increase the number of counselors to provide that 
service. We have more positive outcomes--
    Mr. Arrington. Are you getting the feedback that there are 
bottlenecks in the system as a result or are we just making 
that leap based on the numbers that we have of the increase in 
demand? That is, maybe they have the capacity. Maybe they had 
more capacity and they can absorb this--I don't know--but my 
colleague has communicated to me and everyone here that she's 
starting to see that in her area, her district, her region of 
the country.
    Are you seeing it in other places?
    Mr. Liermann. Yes, I think there is pockets, Mr. Chairman, 
where there are certain regional VA offices that have the 
resources available and there are others that might be 
overtasked, and so you have one counselor dealing--because the 
current rolling average is 136 participants per counselor and 
the requirement is 125. So, if you take that average over 50 VA 
regional offices around the country or 60, that means that 
there are going to be some that are completely overtasked and 
there are going to be others that are handling the workload 
very well.
    So, I think there may be a bottleneck and I really think 
there is a resource issue, because it hasn't been addressed by 
any administration for the last 6 years.
    Mr. Arrington. Ms. Augustine, would you like to comment on 
that?
    Ms. Augustine. Yes, as I have spoken to already, we are 
strongly supportive of a fourth administration; in fact, it is 
one of our top policy priorities for 2018. Because of the 
reasons you have outlined, there isn't sufficient leadership 
there to be accountable to and a champion for these programs. 
And we view it as a vital step forward to making sure these 
proactive empowering programs get the attention they deserve 
and the attention that the American taxpayer has invested into 
it.
    The only thing I would like to add, which I think addresses 
some of the concerns you have both raised, our legal fellow 
Cassie has started compiling concerns that she has received 
from our student veterans specific to VocRehab and we would be 
happy to set up a time to brief you both on concerns that she 
has received.
    Mr. Arrington. Thank you very much for that kind of and, 
thank you, sir, for sharing your personal story of benefitting 
from that service, which is a great anecdote for all of us.
    I am going to close out here, I promise, but I think you 
could add political leadership, oversight, accountability and 
enhanced management and attention over areas like this that I 
think need it in a budget-neutral way. I don't think you have 
to spend more money to do that. We have got $12 billion. It is 
about prioritization.
    I haven't been doing this long enough to say definitively 
that we need to do it, which is why I am asking you all, but my 
hunch is we do. I have heard the administration is not 
interested, but that is secondhand. So, have you all 
communicated with the administration and the leadership of the 
VA and what have you received in way of a response?
    Ms. Augustine. Yes, we have communicated that a need for 
veteran economic opportunity administration is a priority of 
ours with the administration and, specifically, with leaders 
within VA. And we have received some valid concerns from them 
that we look forward to hearing in next week's testimony, which 
includes draft legislation on this very topic.
    Mr. Arrington. Okay. Well, I look forward to that 
discussion, a more focused, but robust discussion about that. I 
think we need to have it. I would like for the administration 
to buy into that. I am not big on telling management how to 
manage. I am into holding management accountable for the lack 
thereof and for the lack of the desired outcomes, which is hard 
to come by even these days, as I have talked about with my 
colleague.
    I want to ask you all to tell me where, if we did increase 
this money, I mean the resources, where you would find an 
offset within the VA. This is--by the way, I am not attributing 
this to my colleague; this is all me--but I won't make you do 
that, because I don't know that I have heard anybody come to 
this table with suggestions on where to cut things that aren't 
working for savings that could be reinvested in areas that we 
all believe are priorities and we see living proof right in 
front of us, except for my friend Mr. Shuman, who did say we 
could save some on that flight program by capping and 
redirecting.
    So, that will be for round two one day when you guys come 
back here, but I want everybody at the VA to know as loaning as 
I am Chairman of the Economic Opportunity Subcommittee, I want 
to know what success is for any program. I want to know if we 
are achieving that success. And I want to know where we need to 
make additional investment and where we can make additional 
efficiencies, and therefore, savings, either to give back to 
the taxpayer or to reinvest in areas that are working and to 
serve our customer.
    Ms. Esty has been very patient to hang in there with me, 
and you guys have, too. Thank you for indulging me with all 
this. We care about this and we want to get it right. We know 
you guys do, too, so let's work to improve the service to our 
heroes and to our taxpayers.
    So, with that, I ask unanimous consent that all Members 
have--this is really hard to read to my colleague--5--that 
sounds like--it looks like 4--5 legislative days in which to 
revise and extend their remarks. Hearing no objection, so 
ordered.
    [The statement of the American Federation of Government 
Employees, AFL-CIO appears on p. ]

    [Whereupon, at 3:25 p.m., the Subcommittees were 
adjourned.]

                           A P P E N D I X

                              ----------                              

            Prepared Statement of Honorable Cheryl L. Mason
    Good afternoon, Chairmen Bost and Arrington, Ranking Members Esty 
and O'Rourke, and distinguished members of the Subcommittees. Thank you 
for the opportunity to testify today in support of the President's 
Fiscal Year (FY) 2019 Budget, including the FY2020 Advance 
Appropriation (AA) request. I am accompanied today by Jamie Manker, 
Acting Principal Deputy Under Secretary for Benefits for Veterans 
Benefits Administration (VBA), and Lloyd Thrower, Deputy Chief 
Information Officer, Account Manager for Benefits, from VA's Office of 
Information and Technology (OI&T). With the unwavering support and 
leadership of our VA Committees, the Congress passed groundbreaking 
legislation on VA accountability, appeals modernization, the Forever GI 
Bill, and personnel improvements. The FY2019 Budget fulfills the 
President's strong commitment to all of our Nation's Veterans by 
providing the resources necessary to improve the care and support our 
Veterans have earned through sacrifice and service to our country.

Fiscal Year (FY) 2019 Budget Request

    The President's FY2019 Budget requests $109.2 billion in FY2019, an 
increase of $1.5 billion over the FY2018 President's Budget advance 
appropriations request for $107.7 billion, and $121.3 billion in FY2020 
for VBA's mandatory advance appropriations, including Compensation and 
Pensions, Readjustment Benefits, and Veterans Insurance and 
Indemnities. In addition, the Budget requests discretionary funding of 
$2.9 billion for VBA and $174.7 million for the Board of Veterans' 
Appeals (the Board) for claims and appeals processing. The Budget 
request would allow VA to sustain the claims processing improvements 
implemented over the past several years while concurrently focusing on 
the Secretary's priorities to modernize VA systems and services so the 
Department can continue to provide high-quality, efficient care and 
services, and keep up with the latest technology and standards of care. 
The initiatives in our Budget request are consistent with this 
priority.
    For the Board, the FY2019 request of $174.7 million is $19.2 
million above the FY2018 Budget and will sustain the 1,025 full time 
equivalent employees (FTEs) who will adjudicate and process legacy 
appeals while implementing the Appeals Modernization Act. The Board is 
currently on pace to produce over 81,000 decisions in FY2018, a 
historic level of production.

Accelerating Processing of Disability Compensation Claims

    Since 2013, VA has made remarkable progress toward reducing the 
backlog of disability compensation claims pending over 125 days. VBA's 
FY2019 Budget request of $2.9 billion would allow VBA to build upon the 
gains made in claims processing over the past several years. The Budget 
supports the disability compensation benefits program for approximately 
4.9 million Veterans and 432,000 survivors. The Budget also reflects a 
sustained commitment to deliver 1.3 million rating claims and 187,000 
higher-level reviews and decrease the amount of time Veterans wait for 
a decision.
    To continue improving disability compensation claims processing, 
VBA has implemented an initiative called Decision Ready Claims (DRC). 
The DRC initiative offers Veterans, Servicemembers, and survivors 
faster claims decisions through a partnership with Veterans Service 
Organizations (VSOs) and other accredited representatives. These VSOs, 
and other accredited representatives, help to ensure that applicants 
include all supporting evidence with the claim at the time of 
submission, which allows VA to decide the claim within 30 days of 
submission. Since the inception of the program, DRCs are being decided 
in an average of 10.2 days.

Appeals Modernization

    In August 2017, the President signed into law the Veterans Appeals 
Improvement and Modernization Act of 2017 (Modernization Act), which 
represents the most significant statutory change to impact VA claims 
and appeals and provides much-needed reform. The new system, still in 
the implementation phase, provides a more efficient claims and appeals 
process for Veterans, with opportunities for early resolution of 
disagreements with VA decisions.
    In addition, within VBA's FY2019 request, $74 million will be used 
for 605 appeals-processing FTEs. This increase would sustain 2,100 FTEs 
dedicated to reducing the legacy appeals inventory and reviewing claims 
decisions under the Modernization Act.
    The request also follows VBA's realignment of its administrative 
appeals program under the Appeals Management Office in January 2017, as 
part of an effort to streamline and improve performance in legacy 
appeals processing. The improved focus and accountability resulting 
from this realignment helped increase VBA appeals production by 
approximately 24 percent, decrease its appeals inventory by 10 percent, 
and increase its appeals resolutions by 10 percent, resolving over 
124,000 appeals during FY2017.
    In FY2019, the Appeals Modernization project will achieve the 
benefit of using Caseflow Certification, a commercially-developed 
system, that will help reduce errors and delays caused by disjointed 
manual claims processing, and improve the Veteran experience by 
enabling transparency of appeals processing and ultimately facilitating 
the delivery of more timely appeals decisions.
    Section 4 of the Modernization Act also authorizes VA to develop 
programs to test assumptions relied upon in planning. Accordingly, VBA 
launched the Rapid Appeals Modernization Program (RAMP) on November 1, 
2017. The initiative allows eligible participants with disability 
compensation appeals pending with VBA the voluntary option to have 
their decisions reviewed in the higher-level or supplemental claim 
lanes outlined in the Modernization Act.
    With RAMP, VA has already made great strides toward implementing 
the new appeals process. After gathering input from VSO partners and 
other stakeholders, VA is testing the new process from intake to 
issuance of a decision. This includes testing the election opt-in 
notice, the new decision notice that meets the requirements outlined in 
the statute, as well as internal standard operating procedures.
    Additionally, the Board is exploring a pilot program that will 
allow VA to make predictions regarding Veteran behavior, resource 
allocation, and timeliness in all five options in the new system. The 
goal of the pilot is to identify needs and concerns related to full 
implementation, and make predictions about timeliness and productivity. 
The pilot will test people, processes, and technology to ensure 
successful implementation of Appeals Modernization. It will draw on 
appeals to the Board from Veterans who receive RAMP decisions, elect to 
file a Notice of Disagreement with the Board, and are in the RAMP queue 
at the Board. The pilot is likely to begin in October 2018. The goal is 
to identify potential issues while operating on a smaller scale. The 
Board will engage all stakeholders before launching any pilot. The 
pilot will allow the Board to test assumptions regarding Appeals 
Modernization, streamline processes in anticipation of full 
implementation, and find efficiencies where they exist.

Forever GI Bill

    On August 16, 2017, the President signed into law the Harry W. 
Colmery Veterans Educational Assistance Act of 2017 (Public Law 115-
48), nicknamed the ``Forever GI Bill.'' This law includes the most 
comprehensive change to GI Bill benefits since enactment of the Post-9/
11 Veterans Educational Assistance Act in 2008. The Forever GI Bill 
enhances access and availability to educational benefits for eligible 
Veterans through several technical adjustments, calls for investment in 
information technology (IT) systems, and fundamentally changes the way 
we view the GI Bill. It is known as the Forever GI Bill because of its 
most recognized feature - the removal of the 15-year time limitation 
for Veterans who transitioned out of the military after January 1, 
2013, and eligible dependents, to use their Post-9/11 GI Bill benefits. 
The law also restores benefits to Veterans impacted by school closures 
since 2015 and expands benefits for certain Reservists, surviving 
dependents, and Purple Heart recipients among other improvements. A 
number of the provisions of this law were effective upon enactment, 
while several others will take effect on August 1, 2018, or at a later 
date.
    The impact of this statute is that 22 of the law's 34 provisions 
require significant changes to IT systems. Currently, OI&T is primarily 
focused on a solution for the most comprehensive provisions - Sections 
107 and 501 at an estimated cost of $8 million. VA has authorized the 
recruitment of 200 temporary field employees to manage the new 
workload, and launched an extensive outreach and promotional campaign 
to ensure all beneficiaries are aware of the enhancements to GI Bill 
benefits.
    VA has begun implementing provisions effective on the date of 
enactment. On November 15, 2017, VA notified nearly 8,000 beneficiaries 
and processed nearly 900 applications to restore entitlement to those 
impacted by school closures. VA has also notified nearly 3,200 
beneficiaries, under the Reserve Educational Assistance Program, who 
lost benefits due to the sunset of the program who can now elect to 
have their qualifying active duty service periods credited towards 
establishing eligibility under the Post-9/11 GI Bill Program. 
Furthermore, VA has informed individuals of the changes to the time 
limitation for the GI Bill and will continue communicating with these 
beneficiaries. VA is also working to revise regulations, develop 
communications plans, and build operational models to implement the 18 
provisions that will take effect August 1, 2018.

Transition Assistance Program

    VA is proud to be a part of the Transition Assistance Program (TAP) 
interagency partnership. We are excited to tell you about our ongoing 
efforts to make TAP more holistic, relevant, and beneficial. In FY2017, 
VA conducted over 50,000 military installation engagements in support 
of transitioning Servicemembers (TSM) and their families. VA is 
collaborating with DoD to align TAP offerings with the current Military 
Life Cycle framework, which embeds transition planning and preparation 
for meeting career-readiness standards throughout a Servicemember's 
military career. In FY2017, VA made a strategic decision to do a 
complete redesign of the curriculum, exceeding the standard review 
requirement. Since no two military to civilian transitions are the 
same, the redesigned curriculum is personalized and relevant to each 
TSM based on where they are in their transition journey. Through this 
process, VA identified targeted areas of focus that have a particular 
importance to the TSM population, including (but not limited to) whole 
health, gender-specific health, mental health, suicide prevention, 
trauma/crisis support, career preparation, education, vocational 
rehabilitation, housing, homeless support, and disability benefits. 
During FY2016, VA also designed a new curriculum specific to members of 
the National Guard and Reserve. The National Guard and Reserve 
components have unique needs due to their missions and mobilizations, 
and eligibility for VA programs is often more complex to adjudicate.
    VA consistently receives high evaluations from Servicemembers who 
attend Benefits Briefings I and II, averaging 96-percent satisfaction 
on information learned, 96 percent on effectiveness of the 
facilitators, and 94 percent on confidence gained from the material. 
Together, the partnership has accomplished a great deal, but there is 
still much work to be done. VA looks forward to continuing to work with 
the Department of Defense (DoD), Department of Labor (DOL), and all of 
our partners (Department of Homeland Security (Coast Guard), Office of 
Personnel Management, Small Business Administration, and Department of 
Education) to continue to improve and streamline TAP for future 
transitioning Servicemembers and their families.
    VA has collaborated with DoD and DOL, and all of our partners DHS, 
CG, OPM, SBA, and ED to define what ``success'' means for TAP. The 
agreed definition of success for TAP transitioning Servicemembers 
includes either obtaining employment, starting a business, or enrolling 
in an educational program. The TAP interagency partners strongly 
believe that the impact on Veterans beyond 12 months post-TAP 
completion is likely to be influenced by much more than TAP; therefore, 
the most valid measures of the effectiveness of TAP should be focused 
on the first 12 months post-separation.
    The current interagency TAP Evaluation Plan for FY2017-2018, 
approved by the Office of Management and Budget (OMB), includes a 
robust set of assessment methods and tools to evaluate the processes 
for TAP delivery, immediate results of program delivery (e.g., whether 
separations comply with statute and policy), and the desired systematic 
impacts (e.g., Veterans successfully obtain employment, start a new 
business, and/or seek additional education).
    VA is working with interagency partners to collect feedback on 
post-separation outcomes via a post-separation assessment. 
Implementation of the assessment will give VA the opportunity to ensure 
that TAP is employing the right tactics to help Servicemembers 
transition successfully and will allow VA to conduct data-driven 
evaluation of the effectiveness of TAP and the long-term impact of 
interagency transition services.
    Over the last year, VA, with contractor support, developed a survey 
protocol for the Post Separation TAP Assessment. To date, VA has 
completed cognitive pretesting with Veterans, including VSO partners 
and Veteran peer groups to obtain outside input and feedback used to 
modify the assessment questionnaire. In February 2018, VA submitted the 
long-term assessment instrument to OMB for approval and published the 
related notice in the Federal Register.
    VA has redesigned the VA Benefits briefings, which are part of the 
overall TAP curriculum. In addition to continuing VA's focus on 
providing information and access to VA resources for career 
preparation, education, vocational rehabilitation, housing, insurance, 
and disability benefits, VA has added a focus on whole health and 
strengthened material related to health care, mental health, suicide 
prevention, and trauma/crisis support. In addition, VA Benefit Advisors 
will facilitate live, real-time registration into VA health care and/or 
mental health care for all Servicemembers still on active duty status 
while participating in TAP. This new facilitated registration allows 
the transitioning Servicemembers, who choose to opt in to VA care, the 
ability to follow along with the instructor and complete their VA 
health care application online through a secure internet connection. VA 
health care applications completed by transitioning Servicemembers will 
be adjudicated by VA after the date of discharge. This redesigned 
curriculum has been pilot tested with Servicemembers at five military 
installations and will be deployed worldwide on April 2, 2018.

Fiduciary FTEs

    The Fiduciary Program requests $22 million in the FY2019 Budget for 
an additional 225 FTEs to protect benefits paid to some of the most 
vulnerable beneficiaries who, because of disease, injury, infirmities 
of advanced age, or by reason of being less than age 18, are unable to 
manage their VA benefits. There has been over a 60-percent increase in 
active beneficiaries from the end of FY2011 (approximately 122,000) to 
the end of FY2017 (approximately 196,000). The Fiduciary Program has 
served more than 211,000 total beneficiaries in FY2017. The number of 
beneficiaries is projected to increase approximately six percent each 
year. The average age of beneficiaries in the Fiduciary program is 
approximately 79 years and over 60 percent of beneficiaries are over 
the age of 80. The requested resources will increase the capacity of VA 
to process approximately 16,500 additional field examinations.

Conclusion

    Thank you for the opportunity to appear before you today to address 
the FY2019 Budget. These resources will honor the President's 
commitment to Veterans by continuing to enable the high-quality 
benefits our Veterans have earned. The Budget will support the 
Secretary's efforts to achieve his top priorities while ensuring that 
VA is a source of pride for Veterans, beneficiaries, employees, and 
taxpayers. Thank you for your support.
    This concludes my statement. Thank you for the opportunity to 
appear before you today. We would be pleased to respond to questions 
you or the other Members of the Committee may have.

                                 <F-dash>
                Prepared Statement of Matthew J. Shuman
    Chairman Arrington, Chairman Bost, Ranking Members O'Rourke and 
Esty, and distinguished members of both Subcommittees, on behalf of 
Denise H. Rohan, National Commander of The American Legion; the 
country's largest patriotic wartime service organization for veterans 
and our 2 million members; we thank you for inviting The American 
Legion to present our position on President Trump's proposed FY19 
budget \1\ for the Department of Veterans Affairs before you today.
---------------------------------------------------------------------------
    \1\ An American Budget: https://www.whitehouse.gov/wp-content/
uploads/2018/02/budget-fy2019.pdf
---------------------------------------------------------------------------
    The American Legion is a resolution-based organization; we are 
directed and driven by the millions of active Legionnaires who have 
dedicated their money, time, and resources to the continued service of 
veterans and their families. Our positions are guided by nearly 100 
years of advocacy and resolutions that originate at the grassroots 
level of the organization -local American Legion posts and veterans in 
every congressional district of America.
    The American Legion appreciates President Trump following through 
with the promises he made on the campaign trail. At a time when most 
Federal agencies are experiencing a decrease in their respective 
budgets, the Department of Veterans Affairs (VA) will hopefully, with 
assistance from these critical Committees, receive a much-needed 
increase.

VETERANS BENEFITS ADMINISTRATION & BOARD OF VETERANS APPEALS

    ``Streamlines Delivery of Veteran Benefits. VA provides veterans 
and eligible dependents with benefits including disability 
compensation, pension, GI Bill, educational assistance, vocational 
rehabilitation, and home loan guaranties among others. The Budget 
invests $2.9 billion, a 1-percent increase from the 2017 enacted level 
for these programs. These benefits directly support the economic 
security of veterans and their families, and reflect a greater 
commitment to a better future. \2\''
---------------------------------------------------------------------------
    \2\ An American Budget: https://www.whitehouse.gov/wp-content/
uploads/2018/02/budget-fy2019.pdf

---------------------------------------------------------------------------
-An American Budget, Trump Administration's Proposed FY 19 Budget

    One of the priorities of The American Legion is to ensure the men 
and women who have selflessly served our Nation receive the benefits 
they earned while wearing the uniform of the U.S. Armed Forces. There 
is no question that 2017 was a successful year for legislation dealing 
with and improving the quality of life for veterans. From passing the 
accountability and whistleblower legislation that arms the Secretary of 
the VA with the ability to terminate defunct employees, reforming the 
VA appeals process allowing for disability claim decisions to be 
rendered in a more realistic time frame, and passing the Harry W. 
Colmery Veterans Educational Assistance Act of 2017, which was named 
after an original author of the G.I. Bill and past national commander 
of The American Legion; 2017 was indeed a great and productive year. It 
is vital that we keep the momentum moving in a direction that benefits 
those who have raised their right hand, taking an oath to defend our 
great Nation.
    In order to ensure veterans receive the benefits they earned, we 
must guarantee that proper funding allocated, setting up VA for 
success. The president's proposed budget calls for:

Benefits Claims Processing:

    <bullet>  Provide $2.9 billion to Veterans Benefits Administration 
(VBA) to process 1.5 million veterans rating claims and 4.5 million 
education claims
    <bullet>  Hire an additional 225 fiduciary employees to protect 
VA's most vulnerable veterans who are unable to manage their VA 
benefits

Appeals Reform:

    <bullet>  Implement a new appeals process that is clear, 
understandable, and provides veterans with choices that best meet their 
needs.
    <bullet>  Provide the Board of Veterans Appeals (BVA) with $175 
million, to support 1,025 full time employees (FTE) to implement reform 
and address legacy appeals.
    <bullet>  Provide VBA with $74 million to hire 605 FTE to address 
appeals

    By resolution, The American Legion advocated for the modernization 
of the antiquated appeals system, also referred to as ``legacy 
appeals.'' The passage and signing of this law, aimed at modernizing 
the broken process that had claims in the system for more than a 
decade, and in some cases even longer. A new reform bill will provide 
three different routes that a veteran can take to receive a judgement, 
placing the veteran in control of their claim. Allowing the veteran 
control and creating numerous ways for them to file their claim will 
allow the VA to render a decision on the veteran's claim within a year. 
This was, and remains, a much-needed improvement to an archaic and 
dilapidated system.
    A concern held by many is how the VA prioritizes and processes 
legacy appeals. The American Legion applauds the president's call to 
increase funding for this program and establishing the hiring of over 
1,000 new FTE that will be able to assist in the processing of the 
legacy appeals.
    Additionally, prior to a claim decision or judgement being 
appealed, an initial claim processing must take place. The American 
Legion applauds the president's proposed budget in calling for 
increased funding for the VBA to process the 1.5 million veterans 
rating claims along with the 4.5 million education claims. Members of 
The American Legion understand the need for VBA to process a veteran's 
claim within a timely manner, treating them with the respect they 
deserve. Providing increased funding will allow VA to process claims 
faster and better, to the benefit of the veteran. Processing claims the 
correct way will reduce the amount of appeals, essentially reducing the 
workload on the VA and the negative impact on the veteran.

VOCATIONAL REHABILITATION & EMPLOYMENT

    The Vocational Rehabilitation and Employment (VR&E) Program 
provides comprehensive services and assistance enabling veterans with 
service-connected disabilities and employment handicaps to achieve 
maximum independence in daily living, become employable, and maintain 
suitable employment. After a veteran is found to be entitled to VR&E, a 
vocational rehabilitation counselor helps the veteran identify a 
suitable employment goal and determines the appropriate services 
necessary to achieve their goal.
    The American Legion is pleased the appeals claims process is being 
modernized, and that the president's proposed budget calls for $135.5 
million to be allocated for the Board of Veterans Appeals and related 
IT initiatives to reduce the pending appeals inventory. Additionally, 
we are thankful that $74 million is requested in the president's budget 
to hire an additional 605 full-time VBA employees to assist in 
decreasing and processing veterans claims.
    Once a veteran's claim has been adjudicated, the next step is 
approval and access to utilize the VR&E program. However, if the 
processing rate of adjudicating claims is increased and no investment 
into the VR&E program is made, The American Legion fears the unintended 
consequence of increasing the applicant pool for VR&E without 
increasing support staff will cause concern.
    Between FY11 and FY 16, VR&E applicants rose from 65,239 to 
112,115, creating increasing workloads for VR&E counselors tasked with 
developing employment goals and services for beneficiaries. The 
American Legion recognized the escalating problems associated with 
VR&E, and at our 2016 National Convention enacted Resolution No. 345: 
Support for Vocational Rehabilitation and Employment Program Hiring 
More Counselors and Employment Coordinators \3\.
---------------------------------------------------------------------------
    \3\ American Legion Resolution No. 345: https://archive.legion.org/
bitstream/handle/123456789/5663/2016N345.pdf?sequence=1&isAllowed=y
---------------------------------------------------------------------------
    The combination of the increasing output of claims and appeals 
while not increasing the number of program counselors in the Vocational 
Rehabilitation and Employment program has the potential to accelerate 
the challenge into a full-blown crisis for veterans enrolled in the 
program.
    The American Legion is thankful and proud to have worked closely 
with this Committee and others in Congress to modernize the appeals 
process and is appreciative that the president's budget requests the 
funding necessary to complete the modernization. We also encourage this 
Committee to consider and take into account the impending need to 
increase funding for the VR&E program, so we can assist veterans in 
finding quality employment.

ENHANCE & EXPAND ACCESS TO POST-9/11 G.I. BILL EDUCATION BENEFITS

    The passage of the Harry W. Colmery Veterans Educational Assistance 
Act of 2017 mandates the largest improvements to the Post-9/11 GI Bill 
since its enactment in 2010. Included in this legislation was a 
requirement for VA to make changes and improvements to the VBA IT 
program ensuring that original and supplemental claims for educational 
assistance under Chapter 33 are adjudicated electronically and that 
rules-based processing is used to make decisions on claims ``with 
little human intervention.'' The legislation also provided VBA with $30 
million in funding to implement the Colmery G.I. Bill.
    The American Legion applauds the effort to include $30 million 
within the legislation as an IT investment for VBA to better implement 
the G.I. Bill reform, but we remain skeptical as to how far $30 million 
can be stretched to cover the sweeping improvements of the Colmery G.I. 
Bill. Several of the new provisions and implied tasks require work or 
oversight that is not currently supported by existing VBA IT systems, 
making manual intervention and processing necessary. This could range 
from broad requirements to scale the Vet Tech Pilot to sending out 
automated letters of eligibility to new G.I. Bill beneficiaries.
    The president's proposed budget states, ``the Budget complements 
and supports continued implementation of the Harry W. Colmery Veterans 
Educational Assistance Act of 2017 (the ``Forever GI Bill'') which 
represents one of the most sweeping changes to the Post-9/11 GI Bill 
since its inception, expanding access to veterans and eligible 
dependents. In addition to the benefit payments, requested funding 
would also fund IT investments to effectively implement all provisions 
of the new law.'' The American Legion is pleased that the Trump 
Administration shared the same concern of the possibility that $30 
million would not be sufficient to fully and effectively implement the 
Colmery G.I. Bill and requests additional funding for IT at VBA.

Cap Post-9/11 G.I. Bill Flight Training Programs at Public Schools

    We are pleased to see a recommendation from the Trump 
Administration to cap costly flight training programs at public 
universities or other Institutions of Higher Learning (IHL.) The 
American Legion supports measures to improve cost control for flight 
programs offered by IHL's across the Nation.
    In 2015, The Los Angeles Times exposed that some IHL's had 
instituted extreme costs for flight fees as there were no caps in place 
for public schools. \4\ Since that time, increased oversight from the 
Department of Veterans Affairs and State Approving Agencies (SAAs) has 
resulted in lowered overall expenditures for flight training from a 
height of $79.8 million in 2014to $48.4 million in 2016.
---------------------------------------------------------------------------
    \4\ U.S. taxpayers stuck with the tab as helicopter flight schools 
exploit GI Bill loophole - March 15, 2015 http://www.latimes.com/
nation/la-me-adv-gibill-20150315-story.html#page=1
---------------------------------------------------------------------------
    Among the external factors responsible for this reduction was a 
100% compliance survey conducted by SAAs in 2015 that resulted in 12 
suspensions and withdrawals due to violations of the 85-15 rule. The 
mandate to micromanage flight programs is unsustainable, even as 
institutions learn to adjust to the requirements while hedging veteran 
enrollment. The American Legion believes that a solution is still 
necessary to ensure that the Post-9/11 G.I. Bill and the Colmery G.I. 
Bill remain an honorable investment of taxpayer funds.
    The president's proposed budget would place a cap on the amount the 
G.I. Bill would pay for a veteran to receive flight training. The 
American Legion supports this action, with one modification: any cost-
savings from capping the G.I. Bill for services rendered from an IHL, 
would be utilized for the benefit of veteran's education, employment, 
or transition services.

CLOSING

    Chairman Arrington, Chairman Bost, Ranking Member's O'Rourke and 
Esty, and other members of these critical Committees, The American 
Legion thanks you for the opportunity to elucidate the position of the 
2 million veteran members of this organization on President Trump's 
proposed FY19 budget as it relates to the Department of Veterans 
Affairs. For additional information regarding this testimony, please 
contact Mr. Matthew Shuman, Director of The American Legion Legislative 
Division at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3459475c4159555a745851535d5b5a1a5b4653">[email&#160;protected]</a>, or (202) 861-2700.

                                 <F-dash>
                Prepared Statement of Shane L. Liermann
    Chairman Bost, Chairman Arrington, Ranking Member Esty, Ranking 
Member O'Rourke and Members of the Subcommittees:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this joint hearing of the Subcommittee on Disability Assistance and 
Memorial Affairs and Subcommittee of Economic Growth regarding the 
fiscal year (FY) 2019 budget submission of the Department of Veterans 
Affairs (VA). As you know, DAV is a non-profit veterans' service 
organization comprised of 1 million wartime service-disabled veterans 
that is dedicated to a single purpose: empowering veterans to lead 
high-quality lives with respect and dignity.
    As you know, DAV is a member of The Independent Budget (IB), and 
with our partners, Paralyzed Veterans of America and Veterans of 
Foreign Wars of the United States, we jointly develop and issue budget 
recommendations each year for VA programs, services and benefits. In 
today's testimony, I will highlight DAV's and the IB's budget 
recommendations for the Veterans Benefits Administration (VBA) for 
fiscal year 2019 and compare them to the Administration's proposed 
budget released in February 2018.

GENERAL OPERATING EXPENSES--VETERANS BENEFITS ADMINISTRATION

    The Veterans Benefits Administration (VBA) account is comprised of 
six primary divisions. These include Compensation, Pension, Education, 
Vocational Rehabilitation and Employment (VR&E), Housing and Insurance. 
The increases recommended for these accounts primarily reflect current 
services estimates with the impact of inflation representing the 
grounds for the increase. However, two of the subaccounts-Compensation 
and VR&E-also reflect modest increases in requested staffing to meet 
the rising demand for those benefits and backlogs of pending workload.
    We recommend approximately $3.104 billion for the VBA for FY2019, 
an increase of approximately $194 million over the estimated FY2018 
appropriations level. Our recommendation includes approximately $92 
million in additional funds in the Compensation account above current 
services, and approximately $18 million more in the VR&E account above 
current services to provide for new full-time equivalent employees 
(FTEE).
    The Administration's FY2019 budget request for VBA is approximately 
$2.9 billion, more than $200 million less than our recommendations. 
Below are further details regarding some of the specific 
recommendations that result in this disparity.

COMPENSATION SERVICE PERSONNEL

    In recent years, VBA has made significant progress in reducing the 
claims backlog, which was over 610,000 claims in March 2013. As of 
March 3, 2019, the claims backlog is roughly 78,000 claims, a decrease 
of 87 percent from its peak, and a decrease of about 18,000 claims 
compared to the year prior. VA defines a backlogged disability claim as 
one pending over 125 days. Overall, the total pending claims workload 
decreased from about 390,000 in January 2017, to just over 328,000 
claims today, a decrease of 18 percent in the past year. During that 
time, the average days to complete a claim dropped from 119 days last 
year to 103 days this January.
    However, the trends on accuracy have gone the other direction. In 
January 2015, the 12-month issue-level accuracy was approximately 96 
percent; today it is down to about 94.5 percent, though it has leveled 
off over the past 10 months. The 12-month claim-based accuracy 
measurement has dropped from approximately 91 percent in January 2015, 
to less than 85 percent today. While it is critical to continue 
reducing the backlog and the time it takes to complete a claim, VBA 
must refocus on completing claims accurately the first time.
    In addition, VBA has a backlog of non-rating related claims, such 
as for dependency status changes, that must also be addressed in a 
timely manner. While continued advancements in the functionality of e-
Benefits and other IT systems have allowed veterans and their 
representatives to directly make dependency changes more quickly, this 
non-rating related workload is too often given low priority status in 
Regional Offices. VBA must provide the resources and attention 
necessary to consistently complete this work in a timely manner.
    It is also critical that VBA have sufficient funding for IT 
development and maintenance. In particular, VBA must devote additional 
resources to stakeholder IT enhancements in order to allow VSOs to more 
efficiently submit and review claims they represent. This will not only 
provide better service to veterans, it will also reduce some of the 
burden and workload that would otherwise fall on VBA personnel.
    Another major driver of VBA workload is appeals processing. As of 
February 28, 2018, there are approximately 462,000 pending appeals of 
claims decisions at various stages between VBA and the Board of 
Veterans Appeals (Board), with approximately 306,000 requiring further 
processing at VBA Regional Offices.
    Last year, Congress approved the Veteran Appeals Improvement and 
Modernization Act (P.L. 115-55) in order to help streamline the appeals 
process and provide better, timelier decisions for veterans. In 
November, VBA began early implementation of the law through the Rapid 
Appeals Modernization Program (RAMP) pilot that invites veterans with 
pending appeals to opt into the new system through either the Higher 
Level Review or Supplemental Claim option. RAMP may have the effect of 
redirecting some workload from the Board back to VBA, however, once 
implemented, the new law will also eliminate many of the current appeal 
processes that take place at the Agency of Original Jurisdiction (AOJ), 
such as Statements of Case, and Form 9 Certification.
    Over the past several years, VA has requested, and Congress has 
provided, additional funding to increase staffing at VBA to address the 
claims backlog. However, there have not been commensurate increases in 
funding to address the backlog of appeals pending inside VBA.
    For FY2019, we recommend an additional 900 FTEE for VBA, requiring 
an estimated $92.4 million increase in funding. Of those new FTEE, 500 
should be allocated to the Compensation Service to address the pending 
and future appeals workload; another 350 should be allocated to address 
the growing backlog of non-rating related work such as dependency 
claims; and 50 should be allocated to the Fiduciary program to address 
increased workload in recent years, particularly related to veterans 
participating in VA's Caregiver Support programs.
    The Administration's FY2019 budget requests an additional 605 FTEE 
to implement the new appeals process and reduce the inventory of 
pending appeals. We support the Administration's commitment to reducing 
the large amount of legacy appeals while also implementing the new 
appeals system. We concur with VA's proposed increase in additional 
FTEE.
    We are concerned, however, that the Administration is not 
requesting any additional FTEE for non-rating related work, such as 
dependency claims. A concerted effort will need to be undertaken to 
reduce these non-rating issues as veterans should not have to wait 12 
months or longer to have dependents added to or removed from their 
benefits.
    A July 2015 VA Inspector General report on the Fiduciary program 
found, ``. Field Examiner staffing did not keep pace with the growth in 
the beneficiary population, [and] VBA did not staff the hubs according 
to their staffing plan..''
    Last year we recommended 100 additional FTEE to address this 
problem, however since VBA reallocated an additional 51 FTEE to the 
Fiduciary program this fiscal year, then we had to reduced our 
recommendation to 50 new FTEE for FY2019.
    In recognition that the program has experienced a 73 percent growth 
since 2011, and staffing has not kept up with the needs of the program, 
the Administration requested an additional 225 FTEE for FY2019 for the 
Fiduciary program. We concur with this increase as these veterans can 
be among the most vulnerable beneficiaries in VBA.
    Finally, we would note that as the Veterans Appeals Improvement and 
Modernization Act of 2017 continues to be fully implemented, including 
RAMP, VBA must develop more accurate workload, production and staffing 
models in order to accurately forecast future VBA resource 
requirements.

VR&E SERVICE PERSONNEL

    The Vocational Rehabilitation and Employment Service (VR&E), also 
known as the VetSuccess program, provides critical counseling and other 
adjunct services necessary to enable service disabled veterans to 
overcome barriers as they prepare for, find, and maintain gainful 
employment. VetSuccess offers services on five tracks: re-employment, 
rapid access to employment, self-employment, employment through long-
term services, and independent living.
    An extension for the delivery of VR&E assistance at a key 
transition point for veterans is the VetSuccess on Campus program 
deployed at 94 college campuses. Additional VR&E services are provided 
at 71 select military installations for active duty service members 
undergoing medical separations through the Department of Defense and 
VA's joint Integrated Disability Evaluation System (IDES).
    Over the past four years, program participation has increased by an 
estimated 16.8 percent, while VR&E staffing has risen just 1.8 percent. 
VA projects program participation will increase another 3.1 percent in 
FY2019, and it is critical that sufficient resources are provided not 
only to meet this rising workload, but also to expand capacity to meet 
the full, unconstrained demand for VR&E services.
    In 2016, Congress enacted legislation (P.L. 114-223) that included 
a provision recognizing the need to provide a sufficient client-to-
counselor ratio to appropriately align veteran demand for VR&E 
services. Section 254 of that law authorizes the Secretary to use 
appropriated funds to ensure the ratio of veterans to Vocational 
Rehabilitation Counselors (VRC) does not exceed 125 veterans to one 
fulltime employment equivalent. Unfortunately, for the past three 
years, VA has requested no new personnel for VR&E to reach this ratio.
    In order to achieve the 1:125 counselor-to-client ratio established 
by Congress, we estimate that VR&E will need another 143 FTEE in FY2019 
for a total direct workforce of 1,585, to manage an active caseload and 
provide support services to almost 150,000 VR&E participants. At a 
minimum, three-quarters, of the new hires should be VRCs dedicated to 
providing direct services to veterans. This would require an increase 
of $18 million for FY2019.
    We are disappointed by the Administration's proposal for a decrease 
of $257 million for VR&E for FY2019. While we understand this is partly 
due to lower pricing for the Transition Assistance Program (TAP) for 
those separating from service, this disregards the increased need of 
VR&E services veterans may require many years after separation. The 
Administration acknowledges that since 2013, participation in this 
program increased by 17 percent and noted a rolling average counselor 
to caseload ratio of 136.4, however, their budget request fails to 
request additional FTEE to move closer to a 1:125 counselor-to-client 
ratio.

GENERAL ADMINISTRATION

    The General Administration account is comprised of ten primary 
divisions. These include the Office of the Secretary, the Office of the 
General Counsel, the Office of Management, the Office of Human 
Resources and Administration, the Office of Enterprise Integration, the 
Office of Operations, Security and Preparedness, the Office of Public 
Affairs, the Office of Congressional and Legislative Affairs, and the 
Office of Acquisition, Logistics, and Construction, and the Veterans 
Experience Office (VEO). This marks the first year that the VEO has 
been included in the divisions of General Administration.
    Additionally, a number of the divisions reflect changes to the 
structure and responsibilities of those divisions. For FY2019, we 
recommend approximately $355 million, an increase of more than $25 
million over the FY2018 estimated level. This increase primarily 
reflects an increase in current services based on the impact of 
uncontrollable inflation across all of the General Administration 
accounts.

BOARD OF VETERANS' APPEALS

    With the enactment of the Veterans Appeals Improvement and 
Modernization Act (P.L. 115-55), the Board in 2018 will be developing 
and implementing the new appeals system scheduled to begin in February 
2019. Once fully implemented, the Board will operate five separate 
dockets concurrently, which will require new training and new IT 
functionality to manage this workload. The Board has presented its 
implementation plans to Congress and must adhere to the timelines laid 
out in order to finalize new regulations and prepare its workforce. In 
addition, sufficient IT resources must be provided to the Board to 
complete development of new workload management tools.
    Once the new appeals system is stood up in 2019, overall workload 
coming into the Board is expected to begin leveling off, or perhaps 
begin to decrease, as veterans take advantage of the expanded options 
to resolve appeals at the AOJ level. Thus, it is too early to project 
whether the Board will require more or less resources in its future 
state.
    For FY2018, the Board is projecting that it will produce 81,000 
decisions, the highest total in the Board's history, though there will 
still remain a significant backlog of appeals in the pipeline to the 
Board. VA's budget submission for FY2018, requested funding to increase 
FTEE levels to 1,050, continuing staffing increases in recent years to 
expand capacity and allow the Board to address both the backlog of 
legacy appeals and the transition to the new appeals system.
    For FY2019, we do not recommend any additional staffing increases 
at the Board; however, it is critical that the Board complete the 
hiring and training of new personnel as rapidly as possible. Further, 
it will be critical for VA and Congress to carefully and regularly 
monitor workload, timeliness, quality and other metrics to ensure that 
the Board is and remains appropriately staffed in the future.
    For FY2019, the Administration is requesting a budget of $175 
million, an increase of $8.7 million over FY2018 funding. The increase 
is to allow for use of carryover funds for personnel costs and to 
continue to fund the additional staff to be hired in 2018. We are 
pleased with these proposed increases as it reflects the 
Administration's commitment to reducing legacy appeals and to be 
properly prepared for the implementation of the Appeals Modernization 
Act.

ADMINISTRATION'S PROPOSED LEGISLATION

    Within the Administration's VA budget request were legislative 
proposals on several topics that we find troubling because it could 
have significant negative consequences for veterans and their families. 
We oppose the following proposals:

    <bullet>  Clarify Evidentiary Threshold for Ordering VA 
Examinations:

    VA seeks to amend 38 U.S.C. Sec.  5103A(d)(2) to clarify the 
evidentiary threshold at which VA, under its duty to assist obligation 
in Sec.  5103A, is required to request a medical examination for 
compensation claims. We oppose this proposal would raise the threshold 
for obtaining medical evidence and make it more difficult to receive 
favorable claims decisions. While this proposal estimates it would save 
the Federal government over $900 million in ten years, it does not 
reflect the amount of rightful compensation that would be lost to 
veterans nor does it contemplate the additional resources necessary to 
resolve an increase of appeals on claim denials.

    <bullet>  Elimination of Payment of Benefits to the Estates of 
Deceased Nehmer Class Members and to the Survivors of Certain Class 
Members:

    VA seeks to amend 38 U.S.C. Sec.  1116 to eliminate payment of 
benefits to the estates of deceased Nehmer class members and to 
survivors of certain class members when such benefits are the result of 
presumptions of service connection established pursuant to Sec. 1116 
for diseases associated with exposure to Agent Orange and certain other 
herbicide agents. This proposed legislation would deny veterans' 
families benefits that would have otherwise been due to their deceased 
veteran family member as a result of exposure to these toxic chemicals 
while in service. We oppose any such legislation.

    <bullet>  Clarify Chemicals at Issue for Purposes of Presumptive 
Service Connection for Veterans Serving in the Republic of Vietnam:

    VA seeks to amend 38 U.S.C. Sec.  1116 to define the harmful 
chemicals, specifically Tetrachlorodibenzo-p-dioxin (TCDD), used in 
herbicides by claiming those were only used in Vietnam. Herbicides with 
TCDD were used outside of Vietnam and suggesting otherwise appears to 
be an attempt to save money at the expense of disabled veterans. We 
strongly oppose this proposal to limit disability benefits based on the 
location of herbicide exposure.
    Mr. Chairmen, this concludes my testimony on behalf of DAV. I would 
be happy to answer any questions you or other members of the 
Subcommittees may have.

                                 
                 Prepared Statement of Lauren Augustine
    Chairmen Arrington and Bost, Ranking Members O'Rourke and Esty, and 
Members of the Subcommittees:
    Thank you for inviting Student Veterans of America (SVA) to submit 
our testimony on the fiscal year 2019 budget submission of the 
Department of Veterans Affairs (VA). With over 1,500 chapters 
advocating on behalf of over one million student veterans in schools 
across the country, we are pleased to share the perspective of those 
directly impacted by the budget request concerning these Subcommittees.
    Established in 2008, SVA has grown to become a force and voice for 
the interests of veterans in higher education. With a myriad of 
programs supporting their success, rigorous research on ways to improve 
the landscape, and advocacy throughout the Nation, we place the student 
veteran at the top of our organizational pyramid. As the future leaders 
of this country, fostering the success of veterans in school is 
paramount in their preparation for productive and impactful lives.
    We will discuss our general concerns with the current budgetary 
process' impact on student veterans, concerns specific to VA's budget 
request, and suggestions to strengthen how VA supports student 
veterans.

The Current Budget Process

    Concerns with the lack of regular order around the budget and 
appropriations processes are consistent talking points among the larger 
veteran advocacy community, and even more broadly throughout 
Washington; nevertheless, the need for consistent and predictable 
government funding is more than worth reiterating. Even with VA's 
robust advance appropriation funding cycle, the step-and-repeat of 
continuing resolutions and looming threats of government shutdowns 
leave student veterans with many questions and uncertainty, with recent 
examples demonstrating the timeliness of these discussions \1\.
---------------------------------------------------------------------------
    \1\ See Emily Wax-Thibodeaux, 11,000 disabled student veterans left 
without rent and expense money due to computer glitch, THE WASHINGTON 
POST, Feb. 2, 2018, https://www.washingtonpost.com/news/checkpoint/wp/
2018/02/02/11000-disabled-student-veterans-left-without-rent-and-
expense-money-due-to-computer-glitch/?utm--term=.4cf294f50380. Natalie 
Gross, Here's what a government shutdown could mean for GI Bill users, 
MILITARY TIMES, Jan. 19, 2018, https://www.militarytimes.com/education-
transition/education/2018/01/19/heres-what-a-government-shutdown-could-
mean-for-gi-bill-users/.
---------------------------------------------------------------------------
    Student veterans and their families frequently interact with 
multiple government agencies, which makes the need for reliable 
government funding an issue that transcends the silos of VA. The 
recently passed Bipartisan Budget Act of 2018 is an appreciated first 
step towards resolving that uncertainty.
    As the next iteration of funding requirements comes due in the 
immediate days, assuming it is not resolved by the time of today's 
hearing, we hope to see continued bipartisan compromise. We also 
applaud the full Committee's continued commitment to ensure VA's 
budget, and the programs and services veterans use across government, 
remains a priority for the whole of Congress.

Readjustment Benefits and Education Services in VA's Budget Request

    Through a combination of funding sources, the majority of which is 
newly appropriated funds, VA's budget request calls for an estimated 
$15.5 billion in Readjustment Benefits obligations in 2019 and $16.1 
billion in Readjustment Benefits obligations in 2020 \2\. This does not 
include discretionary funds necessary to administer these benefits.
---------------------------------------------------------------------------
    \2\ U.S. Department of Veterans Affairs, Office of Budget. FY2019 
Budget Submission. Available: https://www.va.gov/budget/products.asp
---------------------------------------------------------------------------
    Largely comprised of the education benefits Education Services 
manages, Readjustment Benefits serve as some of the most proactive and 
empowering benefits available to veterans and their families. 
Readjustment benefits equip veterans to return to the civilian 
workforce as the leaders and problem-solvers upon which the future of 
our country's economic prosperity desperately depends.
    Through increased access to and participation in these benefits, 
budget obligations continue to increase. We encourage the Subcommittees 
to think of Readjustment Benefits as an integral part of the whole of 
VA when advocating for appropriated funds- a macroeconomic net benefit 
in the truest sense of the concept. While healthcare and disability 
compensation make up part of VA's foundational services, Readjustment 
Benefits are also a cornerstone of VA's foundation.
    As noted during our State of Student Veterans of America delivered 
at the 2018 SVA National Conference \3\, the original GI Bill opened up 
higher education to all Americans. Prior to 1944, if you were trying to 
go to school in America, it would have been difficult; less than seven 
percent of Americans in 1944 had a bachelor's degree at the time. The 
GI Bill changed that by educating 49 percent of returning World War II 
veterans from Europe and the Pacific.
---------------------------------------------------------------------------
    \3\ Jared Lyon, Defining Our Future: Today's Scholars, Tomorrow's 
Leaders, Jan. 5, 2018, https://www.linkedin.com/pulse/defining-our-
future-todays-scholars-tomorrows-leaders-jared-lyon/
?trackingId=KSFliL2kVl8OVnbMoFiu1g%3D%3D
---------------------------------------------------------------------------
    These amazing women and men returned to the college campuses on the 
GI Bill and led the democratization of higher education \4\. The 
Readjustment Benefits in place today build on that storied history. 
They are at the core of what VA does best for veterans and this 
country; we strongly encourage Congress to remember the importance of 
Readjustment Benefits and Education Services when defining priorities 
and aligning resources.
---------------------------------------------------------------------------
    \4\ Id.

---------------------------------------------------------------------------
Vocational Rehabilitation and Education (VR&E) in VA's Budget Request

    The VR&E program provides services to veterans with service-
connected disabilities to prepare, find, and maintain employment. 
Currently, VR&E rehabilitation services provide veterans five tracks to 
employment, including employment through long-term services. This track 
largely focuses on the necessary training and education needed to meet 
a veteran's employment goals \5\. According to VA's budget request, the 
VR&E program will see an increase in program participation and 
administration resource needs over the next two years \6\.
---------------------------------------------------------------------------
    \5\ U.S. Department of Veterans Affairs, Eligibility and 
Entitlement, VOCATIONAL REHABILITATION AND EMPLOYMENT (VR&E), https://
www.benefits.va.gov/vocrehab/eligibility--and--entitlement.asp.
    \6\ U.S. Department of Veterans Affairs, Office of Budget. FY2019 
Budget Submission. Available: https://www.va.gov/budget/products.asp
---------------------------------------------------------------------------
    SVA is currently tracking concerns student veterans express with 
the VR&E program to better understand how the program could be 
strengthened. A theme throughout the concerns collected so far rests 
largely with the large caseloads Vocational Rehabilitation Counselors 
(VRC) must manage, the inconsistent VRC decisions, and frequent 
turnover of VRCs \7\. We believe it is necessary to meet the current 
appropriations demand that VA outlined; however, Congress should also 
address some of the underlying resource issues \8\ that are 
contributing to those concerns and proactively improve the VR&E 
program.
---------------------------------------------------------------------------
    \7\ Paul R. Varela, ``A Review of VA's Vocational Rehabilitation 
and Employment Program,'' HOUSE COMMITTEE ON VETERANS' AFFAIRS 
SUBCOMMITTEE ON ECONOMIC OPPORTUNITY, July 8, 2015, https://
www.gpo.gov/fdsys/pkg/CHRG-114hhrg98685/pdf/CHRG-114hhrg98685.pdf 
(turnover discussion on pg. 18).
    \8\ Benjamin L. Krause, J.D., National Association of Veterans 
Program Administrators (NAVPA) Statement for Hearing - ``A Review of 
VA's Vocational Rehabilitation and Employment Program,'' HOUSE 
COMMITTEE ON VETERANS' AFFAIRS, July 8, 2015, https://archives-
veterans.house.gov/submission-for-the-record/mr-benjamin-l-krause-jd.
---------------------------------------------------------------------------
    Given the highly individualized nature of the program, there is 
strong need to ensure proper VRC to veteran ratios as mandated in 
Public Law 114-223, which requires one full-time employment equivalent 
(FTEE) for every 125 veterans \9\. It is unclear if those ratios are 
being met and we encourage these Subcommittees to hold VA accountable 
to that ratio in their budget request. We strongly urge this Committee 
to encourage VA to increase the capped pay of VRCs \10\ to match higher 
salary caps of similar Department of Education positions to aid in the 
turnover of VRCs \11\.
---------------------------------------------------------------------------
    \9\ Continuing Appropriations and Military Construction, Veterans 
Affairs, and Related Agencies Appropriations Act, 2017'' Public Law 
114-223, https://www.congress.gov/114/plaws/publ223/PLAW-
114publ223.pdf.
    \10\ Glassdoor, US Department of Veterans Affairs Vocational 
Rehabilitation Counselor Salaries, https://www.glassdoor.com/Salary/US-
Department-of-Veterans-Affairs-Vocational-Rehabilitation-Counselor-
Salaries-E41429--D--KO34,69.htm (Indicating range of salaries from 
$49,799-$95,000 based on salary reports and statistical methods).
    \11\ See generally National Association of Veterans' Program 
Administrators, 2017 NAVPA Legislative Agenda, http://www.navpa.org/
2017-navpa-legislative-agenda/.

---------------------------------------------------------------------------
Forever GI Bill Implementation in VA's Budget Request

    Last summer, SVA led a coalition of more than 60 organizations to 
pass the most expansive higher education legislation in nearly a 
decade, and also the largest improvement of the Post-9/11 GI Bill-the 
Forever GI Bill. Signed into law on August 16, 2017, the Forever GI 
Bill - officially titled the Harry W. Colmery Veterans Education 
Assistance Act \12\ - made history \13\ thanks to this Committee and 
the current congress.
---------------------------------------------------------------------------
    \12\ Harry W. Colmery Veterans Education Assistance Act of 2017. 
Pub. L 115-48. 16 August 2017. Available: https://www.congress.gov/
bill/115th-congress/house-bill/3218
    \13\ Gross, Natalie (2017). Military Times. ``Trump signed the 
`Forever GI Bill.' Here are 11 things you should know'', https://
www.militarytimes.com/education-transition/education/2017/08/16/trump-
signed-the-forever-gi-bill-here-are-11-things-you-should-know/
---------------------------------------------------------------------------
    The Forever GI Bill includes dozens of provisions that increase 
access to higher education, reduce inequities within the benefit, and 
turn the GI Bill into a benefit of service far beyond the current 
generation. Thirteen of the law's provisions are already in effect and 
benefiting student veterans across the country; the majority of the 
law's provisions will take effect this August. While SVA was proud to 
work alongside many members of these Subcommittees and their staffs to 
pass the Forever GI Bill, we remain concerned about the law's 
successful implementation, which must include sufficient appropriations 
and continued vigilance to the implementation process \14\.
---------------------------------------------------------------------------
    \14\ Hubbard, William, Testimony for Legislative Hearing on the 
Topic Of ``An Update on the Implementation of the Forever GI Bill,'' 
Dec. 12, 2017, HOUSE COMMITTEE ON VETERANS' AFFAIRS SUBCOMMITTEE ON 
ECONOMIC OPPORTUNITY, http://docs.house.gov/meetings/VR/VR10/20171212/
106695/HHRG-115-VR10-Wstate-HubbardW-20171212.pdf.
---------------------------------------------------------------------------
    SVA commends VA and its dedicated staff for the ongoing robust 
public outreach effort to make those affected aware and a clear 
dedication to successfully implementing the Forever GI Bill. However, 
as detailed in VA's budget request \15\, VA needs sufficient resources 
appropriated to meet that goal. Specifically, while we appreciated the 
Forever GI Bill's language authorizing funds to meet some of the IT 
needs to implement the new law, these funds have yet to be 
appropriated. We encourage the inclusion of such appropriations to meet 
that need as soon as possible given the short implementation window 
student veterans are facing.
---------------------------------------------------------------------------
    \15\ Department of Veterans Affairs, Office of Budget. FY2019 
Budget Submission. Available: https://www.va.gov/budget/products.asp
---------------------------------------------------------------------------
    Additionally, several of the provisions - such as the benefit 
restoration for school closures - require new oversight 
responsibilities that cannot be automated. Others, such as the Purple 
Heart expansion, are likely to result in increased GI Bill usage. These 
increased oversight functions and expected growth in usage, and 
implementing the law generally, will require new staff to keep 
processing times from increasing. SVA encourages including sufficient 
appropriations to meet VA's expected staffing needs.

Strengthening VA to Support Student Veterans

    SVA is a solution-oriented organization and we appreciate the 
willingness to collaboratively address our concerns alongside the 
members of these Subcommittees. Our concerns with VA's budget request 
have a common dominator: at present, VA is lacking formal leadership on 
behalf of economic opportunity programs. To be clear, this is not a 
lack of leadership due to personality, but instead a void of a 
sufficient leadership role for such programs in VA's current enterprise 
structure.
    Economic opportunity programs, largely comprised of readjustment 
benefits, should be thought of as an integral part of the empowering, 
whole health model of care VA prioritizes. Programs encompassed under 
the economic opportunity umbrella, like the GI Bill and home loan 
guarantees, are proven success stories that not only benefit veterans 
but the larger American economy.
    Specifically looking at the GI Bill, last year SVA released the 
National Veteran Education Success Tracker (NVEST) \16\ in partnership 
with VA, which focuses on outcomes of student veterans and demonstrates 
the return on investment of student veterans. The first of its kind, it 
studied 854,000 individual records - every Post-9/11 GI Bill user from 
2009 until the summer of 2015 - and showed the success of student 
veterans on campus.
---------------------------------------------------------------------------
    \16\ Cate, C. A., Lyon, J. S., Schmeling, J., & Bogue, B. Y. 
(2017). National Veteran Education Success Tracker: A report on the 
academic success of student-veterans using the Post-9/11 GI Bill. 
Washington, D.C.
---------------------------------------------------------------------------
    The NVEST \17\ report outlines the many ways student veterans 
outperform their peers on campus. From higher grade point averages, a 
higher success rate, and a propensity to obtain degrees in high demand 
fields, the data makes clear student veterans are worth the investment 
America has made in them through the GI Bill.
---------------------------------------------------------------------------
    \17\ Id.
---------------------------------------------------------------------------
    It is for these reasons SVA strongly supports the creation of a new 
administration within VA, named the Veteran Economic Opportunity 
Administration, that would include Undersecretary-level representation 
for programs supporting economic opportunities and transitions of 
veterans and their families. We feel this new administration would be a 
refocusing of existing resources that modernizes VA and creates greater 
accountability for economic opportunity and transition programs. SVA's 
detailed support for this new administration will be the focus of 
upcoming testimony on pending legislation.
    We thank the Chairmen, Ranking Members, and the Subcommittees 
members for your time, attention, and devotion to the cause of veterans 
in higher education. As always, we welcome your feedback and questions, 
and we look forward to continuing to work with these Subcommittees, the 
House Veterans' Affairs Committee, and the entire Congress to ensure 
the success of all generations of veterans through education.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
